<html>
<title> - [H.A.S.C. No. 113-97]-  NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                     

 .
                         [H.A.S.C. No. 113-97]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                     DEPARTMENT OF THE NAVY FISCAL

                      YEAR 2015 BUDGET REQUEST FOR

                     SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                              
                             MARCH 26, 2014


                                     
[GRAPHIC] [TIFF OMITTED] 

    

                                   ______

                      U.S. GOVERNMENT PRINTING OFFICE 

87-860 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
  



             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                         Nicholas Rodman, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, March 26, 2014, Department of the Navy Fiscal Year 
  2015 Budget Request for Seapower and Projection Forces.........     1

Appendix:

Wednesday, March 26, 2014........................................    33
                              ----------                              

                       WEDNESDAY, MARCH 26, 2014
DEPARTMENT OF THE NAVY FISCAL YEAR 2015 BUDGET REQUEST FOR SEAPOWER AND 
                           PROJECTION FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     3

                               WITNESSES

Glueck, LtGen Kenneth J., Jr., USMC, Deputy Commandant for Combat 
  Development and Integration, and Commanding General, Marine 
  Corps Combat Development Command...............................     8
Mulloy, VADM Joseph P., USN, Deputy Chief of Naval Operations for 
  Integration of Capabilities and Resources......................     7
Stackley, Hon. Sean J., Assistant Secretary of the Navy for 
  Research, Development and Acquisition, Department of the Navy..     4

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    37
    Stackley, Hon. Sean J., joint with VADM Joseph P. Mulloy and 
      LtGen Kenneth J. Glueck, Jr................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................    75

Questions Submitted by Members Post Hearing:

    Mr. Conaway..................................................    83
    Mr. Forbes...................................................    79
    Mr. Hunter...................................................    83
    
DEPARTMENT OF THE NAVY FISCAL YEAR 2015 BUDGET REQUEST FOR SEAPOWER AND 
                           PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Wednesday, March 26, 2014.
    The subcommittee met, pursuant to call, at 3:29 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I want to welcome all of our members and the 
distinguished panel of Navy and Marine Corps leaders for 
today's hearing. We have testifying before us on the fiscal 
year 2015 budget request the Honorable Sean Stackley, Assistant 
Secretary of the Navy for Research, Development, and 
Acquisition; Vice Admiral Joe Mulloy, Deputy Chief of Naval 
Operations for Integration of Capabilities and Resources; and 
Lieutenant General Kenneth Glueck, Jr., Deputy Commandant for 
Combat Development, Integration and Commanding General of the 
Marine Corps Combat Development Command.
    Gentlemen, thank you all for being here, for your service 
to our country. We look forward to your thoughts and your 
insights on these important issues. First of all, I want to 
commend the Department on their continued emphasis on the 
undersea warfare domain. I believe that the United States has a 
clear asymmetric advantage in this area, and it is critical to 
continue procurement of two Virginia-class submarines a year. I 
also appreciate the continued emphasis on the Virginia payload 
module and support the eventual inclusion of this capability in 
the fiscal year 2019 Block 4 procurement.
    As to the aircraft carrier force structure, I am dismayed 
at the intent of this administration to reduce our aircraft 
carrier fleet. The equivocation and vacillation on this issue 
is, frankly, disappointing. It is a fact that the 
administration has requested appropriations in fiscal year 2015 
only for inactivating the USS George Washington. It is a fact 
that the law requires 11 aircraft carriers. It is a fact that 
the USS George Washington refueling and complex overhaul is not 
included in the Future Year Defense Plan. It is a fact that the 
hull of the USS George Washington has another 25 years of 
service life remaining. The administration's rhetoric that they 
are not removing an aircraft carrier of the fleet simply does 
not match their actions. I think our decision on this issue is 
clear. I look forward to fully restoring the requisite funding 
to ensure we retain the USS George Washington for another 25 
years.
    There are a multitude of other procurement shortfalls in 
the Navy and Marine Corps budget regarding ships, aircraft, and 
weapons. Our subcommittee is going to take a hard look at the 
entirety of combatant commander requirements and relate those 
to what is requested in the budget to ensure our maritime 
forces are best funded with the right capabilities.
    I look forward to discussing several of these issues today, 
and specifically I want to have an in-depth discussion on the 
Navy's cruiser retention plan. If the Navy believes it must 
pursue this plan because of budget constraints, then we look 
forward to understanding the details of how you all plan to 
execute this endeavor in the decade ahead and eventually 
restore all 11 cruisers to the fleet in a timely fashion.
    We also want to understand the risk if 22 cruisers are 
required to meet global force management requirements today, 
why is it now acceptable risk to reduce by half the quantity 
when world events obviously indicate otherwise?
    And finally, the Navy has cultivated tremendous uncertainty 
related to developing and maintaining offensive surface warfare 
missile capabilities. Despite being well below missile 
inventory requirements, the Navy has cut in half planned 
production of Tomahawk missiles in 2015 and terminated that 
line in 2016. And further concerning, replacement missile 
capabilities are in the infancy stages of concept development 
and years off from operational fielding. We need to again 
understand why this is acceptable risk, and what is your 
surface attack missile road map going forward.
    As to the Marine Corps, I believe that the amphibious ship 
construction industrial base is fragile. A significant gap 
exists between current and new ship construction plans that 
will lead to destabilizing the industrial base. We need to move 
with firm and deliberate steps to ensure that we retain an 
appropriate and unquestionable force structure to support our 
maritime presence and warfighting requirements.
    As to the Amphibious Combat Vehicle program, I understand 
the Marine Corps plans to pursue a two-tiered approach that 
would procure a wheeled armored personnel carrier in the short 
term and continue the development to achieve capabilities in 
the long term associated with high water speed technology 
efforts from previous amphibious vehicle programs. While this 
approach seems reasonable, I look forward to gaining a better 
understanding of the Marine Corps' plans. We need to be assured 
we are providing our Marines with essential capabilities at the 
right time.
    I look forward to discussing these important topics with 
our expert panel of judges. I want to also point out that we 
understand the great service you provide to our country. We 
also understand that you three are the messengers, and we 
appreciate that a lot of these decisions are not your 
decisions, but we thank you for sharing your insight with us on 
them, and with that, I return--I turn to my good friend and 
colleague, the ranking member of the subcommittee, Congressman 
Mike McIntyre.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 37.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you, Mr. Chairman.
    And thanks to each of you for your continued service and 
commitment to our Navy, our Marine Corps, and to our great 
country's armed services. Welcome to each of you today. I know 
earlier this month, the full committee in this room heard from 
Secretary Mabus and Admiral Greenert and General Amos about the 
big picture budget request, of course, for the Navy and Marine 
Corps, and today we do want to dive down deep into the details 
as we consider underwater warfare and other concerns pertaining 
to submarine building, weapons programs, some of our Marine 
Corps programs as well as, of course, shipbuilding.
    While the Navy is facing many challenges, we are pleased 
that in the proposed budget that the Navy-Marine Corps is being 
funded strongly in some areas that it will need to be funded in 
with our shift to the Pacific and our focus in pivoting to the 
Pacific region.
    When we talk about the positive parts, the continued strong 
support for building two Virginia-class submarines a year, 
knowing that the U.S. dominates undersea warfare; in that 
environment, we know the Virginia class will continue to help 
us maintain that important edge. Another encouraging area in 
the budget is the Arleigh Burke-class DDG [guided missile 
destroyer] program, now in its fourth decade, still making sure 
that we have superb ships year after year in that class. And 
with the plan now to start a Flight III set of ships with even 
better air defense capability, we are encouraged by that.
    However, we realize that both services, the Navy and Marine 
Corps, face significant challenges in this year's budget, and 
that is what we want to hear about in this hearing.
    First, as our good chairman, my good friend Mr. Forbes 
mentioned, the potential loss of an aircraft carrier and an air 
wing is a major concern. Aircraft carriers, we know, allow the 
United States to project power almost anywhere in the world on 
very short notice and is a strong statement of our being a 
force for democracy. No nation can match that, and I am 
concerned that letting another aircraft carrier go, we are 
opening the door to an even steeper decline in American naval 
power and presence.
    However, if we do keep the carrier and air wing, the 
question is and we would welcome your recommendations at what 
is being given up if more funding isn't provided to the Navy?
    I also want to hear about the concern about the Navy, how 
it can afford to replace the Ohio-class ballistic submarine, 
given the many other shipbuilding needs. We want to know what 
our options are for dealing with this issue, including the 
potential of setting up an account, perhaps similar to the 
National Defense Sealift Fund Congress established in the 1990s 
to help the Navy build more sealift capability. So we would 
like to hear about a possibility that way in order to make sure 
that we can replace the Ohio-class ballistic missile submarine. 
With such an account, the Navy would be able to spread the 
burden of replacing this very expensive capability without 
gutting the rest of our shipbuilding budget, which is so 
important.
    We also want to hear about the proposed layup, as it is 
called, of some of our cruisers and amphibious ships. I am 
encouraged that the Navy is taking serious this subcommittee's 
concerns about the declining size of the fleet, but we need 
more detail about how this plan would work and what the risks 
might be. What we don't want to see happen is these ships go 
into layup status and then not be properly funded and 
eventually decommissioned as a result. If that happens, we will 
have wasted more money than if they were retired. So we want to 
understand exactly what this proposal includes when the term 
laying up these ships is talked about. Particularly with layups 
this basketball season being so prevalent during March Madness, 
we want to make sure we are planning properly in March so we 
don't have madness in our budget with something as important as 
United States Navy.
    So we thank you for the seriousness that you take these 
topics, and we look forward to asking these serious questions 
and getting these serious answers as we plan ahead to continue 
America's best defense that we have to offer, and we thank you 
for being at the forefront of that.
    Thank you, Mr. Chairman.
    Mr. Forbes. Gentlemen, as you know, without me having to 
say it, our subcommittee is incredibly bipartisan. We have 
enormous respect for each other. I am going to defer my 
questions until the end when we get there because we may have 
votes probably at about 3:15, something like that--4:15, I am 
sorry.
    So if you could, we have your joint statements that will be 
made a part of the record, and if each of you would try to 
limit your remarks to maybe 5 minutes or so if possible so we 
could move on from there.
    And with that, Mr. Secretary, we will let you start off for 
us.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF 
                            THE NAVY

    Secretary Stackley. Yes, sir. Chairman, Ranking Member 
McIntyre, distinguished members of the subcommittee, thanks for 
the opportunity to appear before you today to address 
Department of the Navy acquisition programs.
    Joining me today are the Deputy Chief of Naval Operations 
for Capabilities and Resources, Vice Admiral Joe Mulloy, and 
Deputy Commandant for Combat Development and Integration, 
Lieutenant General Ken Glueck. With permission of the 
subcommittee, I propose to provide a brief opening remarks and 
submit a separate formal statement for the record.
    Mr. Forbes. It will be admitted.
    Secretary Stackley. Two years ago, in testimony before this 
subcommittee, the Navy described how we had reshaped our 
shipbuilding, aviation, and tactical vehicle plans to reflect 
the priorities of the new defense strategy, and Congress 
strongly supported that year's 2013 budget request. In fact, 
funding was increased for additional ships and aircraft. 
However, sequestration more than offset those gains, and the 
Department of the Navy ended up about $11 billion out of 
balance across the operations, maintenance, and investment.
    Last year, we again submitted a budget sized and shaped to 
provide the capability, capacity, and readiness required by the 
defense strategy, and while this committee was particularly 
supportive of our request, at the end of the day at the bottom 
line the Bipartisan Budget Act [BBA] reduced the Navy-Marine 
Corps budget by $6 billion in 2014 and another $15 billion in 
2015.
    So this year's budget submission is anchored by the BBA in 
2015, and though we exceed the Budget Control Act caps across 
the Future Years Defense Plan, the Navy and Marine Corps 
request falls $38 billion below the level planned just 1 year 
ago. So to minimize the impact of this reduced top line, we 
have leveraged every tool available to drive down cost. We have 
tightened requirements, maximized competition, and capitalized 
on multiyear procurements for major weapons systems, and we 
have attacked our cost of doing business from headquarters 
billets to service contracts so that more of our resources can 
be dedicated to warfighting capability. And in balancing 
resources and requirements, we have placed priority on forward 
presence, near-term readiness, stability in our shipbuilding 
program, and investment in those future capabilities critical 
to our long-term technical superiority.
    Major milestones this past year highlight some of those 
capabilities. The Marine Corps took the Joint Strike Fighter to 
sea, conducting extensive testing on board USS Wasp. The Navy 
conducted first flight of its high endurance unmanned maritime 
surveillance aircraft, the Triton, followed shortly by the 
first trap and catapult on and off an aircraft carrier of the 
unmanned combat air system.
    The Navy's game-changing maritime patrol aircraft, the P-8A 
Poseidon, is today ranging the Western Pacific on her first 
deployment and contributing to the search for Malaysian Airline 
Flight 370. In the first demonstration of the Navy's integrated 
fire control capability, an E-2D Advanced Hawkeye passed track 
data to an Aegis cruiser firing the Navy's newest missile, the 
SM-6, to knock out a target well over the horizon without ever 
tracking it on the ship's radar. And in a series of firsts, USS 
John Paul Jones demonstrated the power of Aegis modernization 
by simultaneously engaging inbound cruise and ballistic missile 
targets. USS Lake Erie knocked out a ballistic missile target 
by firing on the remote track of a distant satellite. A few 
months later, she would take out a complex separating ballistic 
missile target and, in a third test, set the mark for the 
highest altitude intercept to date. Meanwhile, the DDG 1000 
advanced gun system went nine for nine, firing 155[mm] rounds 
at ranges greater than 60 nautical miles with a strike pattern 
unlike anything ever seen from the barrel of a gun. And the 
Long Range Anti-Ship Missile conducted its first air launch 
demonstration, striking a maritime target from a distance far 
beyond the reach of the weapons in our arsenal today.
    With particular regard to Navy shipbuilding, we kept on 
track our objective for a 300-ship Navy. Seven first-of-class 
ships met major milestones. Gerald Ford, the first new design 
aircraft carrier since Nimitz, and Zumwalt, the first new 
designed destroyer since Arleigh Burke, launched just 1 week 
apart, each at extremely high levels of completion. The 
amphibious assault ship America successfully completed sea 
trials. The joint high speed vessel Spearhead and the mobile 
landing platform Montford Point delivered to the fleet. The 
littoral combat ship Freedom successfully completed her 10-
month maiden overseas deployment. And finally we laid the keel 
for the first afloat forward staging base, the Chesty Puller.
    In total, 43 ships are under construction in shipyards and 
weapons factories stretching across the country, yet this 
critical industrial base is fragile, and we will need to work 
with industry and Congress to keep it whole as we navigate the 
budget beyond the BBA.
    Meanwhile, the third leg of our balanced naval air-ground 
task force, the Marine Corps tactical vehicles, is at the front 
end of much needed recapitalization. In 2015, we commenced 
procurement of the Joint Light Tactical Vehicle to replace the 
HUMVEE [High Mobility Multipurpose Wheeled Vehicle], and 
separately, we are moving forward with acquiring a highly 
capable, highly survivable wheeled vehicle in a first phase of 
the Amphibious Combat Vehicle [ACV] program. The ACV is, as the 
Commandant stated in testimony, a top Marine Corps priority. 
And the strategy for procuring this vessel is striking a 
necessary balance between requirements and affordability.
    I would like to briefly discuss two critical issues posed 
by our budget request. First, the refueling complex overhaul of 
George Washington CVN-73. The Navy has a hard requirement for 
11 aircraft carriers, and title 10 requires the Navy to retain 
11 aircraft carriers. However, the cost to refuel CVN-73 plus 
maintain its air wing, manpower, and support would require an 
additional $7 billion across the 2015-2019 period, and the 
Secretary of Defense has stated if we return to BCA [Budget 
Control Act] funding levels in 2016, we will likely be 
compelled to inactivate the CVN and its air wing. Therefore, in 
this budget submission, we have effectively taken a pause, 
maintaining the option to include refueling CVN-73 in our 2016 
budget as we await determination of that budget's top line.
    Second, cruiser and LSD [landing ship, dock] modernization. 
The oldest 11 cruisers, CG-52 through 62, have been modernized 
and will deploy with carrier battle groups until their end of 
service which commences in 2019. The Navy plans to modernize 
and extend the service life of the remaining 11 cruisers, CG-63 
through 73, through an extended phased modernization program. 
The elements of the program are that we will commence in 2015 
with planning and material procurement for repair and 
modernization of hull, mechanical, and electrical [HM&E] 
systems for all 11 cruisers. The depot work will be scheduled 
to ensure efficient execution and, to the extent practical, to 
provide stability to the industrial base, and once complete 
that HM&E phase, these cruisers will be maintained in the 
modernization program until completion of their subsequent 
combat systems modernization, which will be aligned with 
retirement of the first 11 cruisers.
    A similar yet simpler approach is planned for three of the 
LSD-41 class ships. This Navy plan is made affordable by 
drawing down ship manpower and operating costs during the 
extended modernization period, a cost avoidance in excess of $6 
billion. It ensures we are able to sustain the 12-ship LSD-41/
49 class for its full service life and the critical air defense 
commander capabilities of the cruiser force beyond its current 
service life into the 2040s. It also retains flexibility, if 
needed, to accelerate completion of the modernization pending 
availability of added funding and training of additional crews. 
In total, in managing the cumulative impact of the 
sequestration in 2013, the BBA level funding in 2014 and 2015, 
the reductions across 2015 through 2019, the Department has 
been judicious in controlling costs, reducing procurements, 
stretching developments, and delaying modernization. However, 
these actions necessarily add costs to our programs, add risk 
to our industrial base, and add risk to our ability to meet the 
Defense Strategic Guidance. If we are forced to execute at BCA 
levels in fiscal year 2016 and beyond, these cuts will go 
deeper and will fundamentally change our Navy and Marine Corps 
and the industrial base we rely upon.
    Mr. Chairman, thank you for the opportunity to appear 
before you today. We look forward to answering your questions.
    [The joint prepared statement of Secretary Stackley, 
Admiral Mulloy, and General Glueck can be found in the Appendix 
on page 40.]
    Mr. Forbes. Thank you, Mr. Secretary.
    Admiral.

STATEMENT OF VADM JOSEPH P. MULLOY, USN, DEPUTY CHIEF OF NAVAL 
    OPERATIONS FOR INTEGRATION OF CAPABILITIES AND RESOURCES

    Admiral Mulloy. Chairman Forbes, Ranking Member McIntyre, 
other distinguished members of the committee, I am Admiral Joe 
Mulloy, and I am very honored to be here with you today, and I 
look forward to your questions.
    I just want to indicate that I support Mr. Stackley's 
statement, but for the last 4 and a half years, I have served 
as the Department of Navy budget officer, and many of your 
staff members know who I am. I have seen the highs and lows of 
the Navy budget. I had the peak budget and over $170 billion in 
fiscal year 2011. I have also saw the pain of sequester and 
what it took to the Navy to try to operate with what started as 
an 8.6 and became a $4 billion reduction.
    We certainly appreciate the BBA law that was passed by the 
Congress, that it gave some stability, but as Mr. Stackley 
pointed out, it also came at a cost of a significant amount of 
money. We are forced to come up with a balanced position minus 
$38 billion over the FYDP [Future Years Defense Program], and 
looming over our head is fiscal year 2016, again with either a 
sequester or not, and another over $30 billion cut through the 
FYDP. I look forward to your questions. I think this provides a 
balanced budget trying to maintain all facets of the Navy 
because before I was budget officer, I was the N5N8 [Deputy 
Chief of Staff for Plans, Policies and Requirements, U.S. 
Pacific Fleet], doing all pol-mil [political-military] planning 
and operations for the Pacific Fleet and all infrastructure and 
resources for out there, so I have seen our fleet used, I have 
seen our forces prepared, and did all that planning for over 3 
years, so I have been on both ends of this in the Pentagon and 
out at the fleet, and I think we tried to find balance in here, 
but I look forward to your questions.
    [The joint prepared statement of Admiral Mulloy, Secretary 
Stackley, and General Glueck can be found in the Appendix on 
page 40.]
    Mr. Forbes. Admiral, thank you. You certainly bring a 
unique experienced background to our committee, and we 
appreciate your willingness to help us.
    General.

    STATEMENT OF LTGEN KENNETH J. GLUECK, JR., USMC, DEPUTY 
    COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION, AND 
  COMMANDING GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND

    General Glueck. Thank you, sir.
    Chairman Forbes, Ranking Member McIntyre, distinguished 
members of the subcommittee, thank you for the opportunity to 
testify before you today. The Marine Corps' ability to serve as 
our Nation's premier crisis response force is due in large part 
to this subcommittee's strong support, and on behalf of all 
Marines, I say thank you.
    History demonstrates when fiscal austerity reduces the size 
of available forces, the Nation must rely on the persistent 
presence and power projection capabilities of the Navy-Marine 
Corps team. The Marine Corps remains first and foremost a naval 
service, operating in close partnership with the Navy. Today 
the two naval services leverage the seas not only to ensure 
global peace and stability but also, when necessary, to project 
our national power and influence ashore. A forward-deployed 
Marine Corps provides our combatant commanders a universal tool 
that they can immediately employ. This force can serve as a 
leading edge of a larger joint force or deploy and sustain 
itself in even the most austere environments. This ability to 
rapidly respond to developing crises not only ensures the 
combatant commander has the right force in the right place at 
the right time but also provides our national leaders with 
valuable decision space.
    Flexible and scaleable by organizational design and 
instinctively adaptive by culture, the Marine Corps is guided 
by our expeditionary ethos and bias for action. These 
characteristics are the hallmark of our corps' capstone 
concept, Expeditionary Force 21. Expeditionary Force 21 blends 
our time-tested concepts of Operational Maneuver from the Sea, 
Ship-to-Objective Maneuver, Seabasing, with the strategic 
agility, operational reach, and tactical flexibility that 
forward-stationed and forward-deployed expeditionary units 
provide.
    Crucial to these capabilities and persistent presence are 
our amphibious warships. They are versatile, interoperable 
warfighting platforms capable of going into harm's way and 
serve as a cornerstone of America's ability to project power 
and respond to the full range of crises. With embark Marines, 
amphibious ships are the Swiss Army knife of the fleet, 
providing diverse capabilities unlike any other naval platform. 
They are critical to both our combatant commanders' theater 
engagement strategy and crisis response options, significantly 
contributing to both regional stability and security. From 
humanitarian assistance and disaster relief to forcible entry 
operations, it is the amphibious fleet that answers the call. 
When the Nation requires a forcible entry capability, these 
warships can launch the assault echelons in two Marine 
expeditionary brigades. However, an inventory fewer of 38 ships 
creates a significant risk in maintaining continuous presence 
and undermines the ability to generate the necessary 
capabilities to respond to crisis or conduct forceful entry. 
While our goal remains to--an increase of sea-based and 
forward-deployed forces, we are examining alternatives that 
will still ensure persistent presence.
    Future security environment requires a robust capability to 
operate from the sea and maneuver ashore to positions of 
advantage. The core capability of technology--excuse me. Core 
capability of expeditionary forces is the ability to project 
forces ashore from amphibious platforms and to maneuver once 
ashore. The Amphibious Combat Vehicle program provides us that 
capability. The Amphibious Combat Vehicle has been refined to 
reflect the family assistance approach to a military problem. 
It will integrate at sea with amphibious as well as maritime 
sealift ships and connectors and enable amphibious operations 
rapidly from further offshore. The Amphibious Combat Vehicle 
leverages experience gained in the Expeditionary Fighting 
Vehicle program, the Marine Personnel Carrier program, current 
threat analysis, and commercial technology to provide a 
superior armor protection and mobility. The Amphibious Combat 
Vehicle is the Marine Corps' number one ground modernization 
priority. It will replace our aging 40-year-old Amphibious 
Assault Vehicle. It will be procured on a phased approach, thus 
complementing the existing capabilities to maximize both 
surface power projection and littoral maneuver. The benefits of 
this phased effort are aimed at producing an amphibious 
capability that deploys from greater distances and speed, thus 
ensuring greater standoff distances for our forces. Given 
continuing advancements in applicable technology, the Marine 
Corps believes that further investment in these technologies 
will lead to the envisioned high water speed capability.
    Additionally, as part of the systems approach, the Navy and 
Marine Corps team will continue its investment in the next 
generation of future connectors. These connectors, with 
enhanced speed and range, both aviation and surface, will 
provide future expeditionary force commanders with the 
flexibility to operate in contested environments. The type of 
transformational technology the MV-22 Osprey has already 
demonstrated needs to be brought to our surface connector 
fleet.
    Clearly there are challenges to today's new normal security 
environment as well as the challenges of constrained and 
uncertain budgets, but rest assured that our forward-stationed, 
forward-deployed Marines are poised to remain the Nation's 
premier expeditionary force in readiness. In partnership with 
the Navy, the Marine Corps looks forward to working with you to 
address these issues. Thank you for the opportunity to be here, 
and I look forward to your questions.
    [The joint prepared statement of General Glueck, Secretary 
Stackley, and Admiral Mulloy can be found in the Appendix on 
page 40.]
    Mr. Forbes. General, thank you.
    And with that, I would like to now recognize the ranking 
member, Mike McIntyre, who since his Tarheels have now exited 
the tournament is supporting the Virginia Wahoos I know as they 
go in there, and now recognize him for any questions he may 
have.
    Mr. McIntyre. Absolutely, I want to uphold the ACC 
[Atlantic Coast Conference] tradition. Congratulations to 
Virginia.
    Mr. Stackley, I want to ask you one question. I know our 
time is going to be compressed, and I want to have other 
members, give them a chance to ask questions since we have 
votes coming up. The subcommittee has heard numerous times from 
the Navy that the Ohio replacement program could consume most 
of the normal shipbuilding budget for 10 years or more. I 
referred to some to this in my opening remarks today.
    What are the alternatives? Could one of them be the 
establishment by Congress of a fund similar to the National 
Defense Sealift Fund so that funding for procurement of the 
Ohio-class submarine is funded across the Department of 
Defense? Would you address that, please?
    Secretary Stackley. Yes, sir, thanks for the question. 
First and foremost, to be real clear, the Ohio replacement 
program, as repeatedly stated by the CNO [Chief of Naval 
Operations], is our top priority in this budget. It will remain 
a top priority in the next budget. We are doing everything we 
have to to protect the funding stream to ensure that the boat 
is designed on schedule, built on schedule, and deploys on 
schedule in 2031.
    Now, what that means is if you look at what the cost of the 
program is in current dollars, it is about a $17 billion 
research and development funding stream, most of which will be 
obligated and expended leading up to that first ship's 
procurement, and in today's dollars, we are looking at a $6.3 
billion cost for the lead boat and targeting $4.9 billion for 
subsequent boats 2 through 12. The first boat is procured in 
2021; the last boat in 2035, so there is a 15-year period where 
it will be the largest part of our shipbuilding program and, as 
has been pointed out, puts extraordinary pressure under our 
shipbuilding--on our shipbuilding program.
    So the notion of a National Defense Sealift Fund [NDSF] 
type of funding mechanism, that won't change the bottom line 
cost for the Ohio replacement program, clearly. What it would 
do, as it had done for the NDSF fleet, is provide a mechanism 
that is extremely flexible to deal with the year-to-year 
challenges associated with executing the funding associated 
with concurrent building the lead boat, completing the R&D 
[research and development] effort that would be done in 
parallel with the lead boat, and then ramping up procurement of 
follow boats. Ultimately, though, when we are building one boat 
per year in the 2026 through 2035 timeframe, then that is going 
to be a steady requirement by the Department of the Navy for 
what is today about $5 billion per year, and out in that 
timeframe, when you add inflation and other considerations, 
will measure up to a significant part of our shipbuilding 
budget. So creating an NDSF, the flexibility that NDSF provided 
to us, aided our efficiency in building the NDSF fleet. Pulling 
that budget out of our SCN [Shipbuilding and Conversion, Navy], 
our shipbuilding top line, if we are able to sustain our 
shipbuilding top line, that does great--you know, that gives us 
the ability to continue to procure the balance of our force, 
but in the end, the bottom line for building out the Ohio 
replacement program will be about the same. So the source of 
the funding ultimately becomes the challenge greater than the 
mechanism for the funding.
    Mr. McIntyre. All right, thank you, Mr. Secretary.
    Any other response?
    Admiral Mulloy. Sir, having served as budget officer, I 
completely support Mr. Stackley's position is that ultimately 
as we looked at this, this is 45 percent over 15 years of the 
entire SCN account. The first two boats are scheduled over 5 
years, but it is half of our budget all those years, so the 
NDSF account like does provide tremendous flexibility for 
solving problems, but as Mr. Stackley pointed out, it ends up 
being the total amount of money that we are talking about is 
right now as the DON [Department of the Navy] is planning on 
doing that, but it would--it essentially crushes the other 
shipbuilding part of the budget is that I have half the budget 
on one ship, I have to build an aircraft carrier, spread it 
over 4 years, and then I end up looking at is the DDG and 
amphibious submarine, and do I build one, two or three, but I 
can't build all three in every one year. So it comes back to 
being, even if we then look at all our other accounts, you 
know, do I shave down aviation? I have a lot of things I need 
to buy out there. We now are stuck into OSD [Office of the 
Secretary of Defense] and will be talking to the Hill. So an 
NDSF fund that has some other way of adding money to it would 
be more flexible there for us as opposed to it is just moving 
Navy dollars there, it doesn't provide any flex--it provides 
flexibility but not source dollars.
    Mr. McIntyre. Okay, thank you. Were both you gentlemen 
classmates in the Naval Academy? You both graduated in 1979, 
right?
    Admiral Mulloy. Yes, sir.
    Mr. McIntyre. Thank you. It is amazing that these years 
later, you serve us together at this table on this day, and God 
bless you and thank you.
    And thank you, General.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mike.
    The gentlelady from South Dakota is recognized for 5 
minutes.
    Mrs. Noem. Thank you, Mr. Chairman.
    To Admiral Mulloy, what is the average lifespan of an 
aircraft carrier?
    Admiral Mulloy. Ma'am, the average lifespan of a Nimitz-
class aircraft carrier is about 50 years. The USS Enterprise 
just completed a little over 51 years.
    Mrs. Noem. Okay, thank you.
    Secretary Stackley, as we all know, the Tomahawk has been 
and will continue to be hopefully the Nation's long-range 
precision strike weapon of choice. Although you did reference a 
new long-range missile that you have been under development. I 
know the Navy decreased the procurement of the Tomahawk Block 4 
cruise missiles by 800 and plans to cease the production of the 
Tomahawk beginning in fiscal year 2016. So can you describe 
some of the thinking and the analysis on that and maybe a 
little bit more detail on your future weapon that you have just 
tested?
    Secretary Stackley. Yes, ma'am, thanks for the question. 
First, the budget does not--the budget cuts our quantity for 
Tomahawk in half from prior years, so we had been sustaining a 
200 Tomahawk per year rate. In 2015, we have dropped down to 
100, and in 2016 and out, I guarantee you we will revisit the 
question of whether the time is right to cease production of 
Tomahawks, but what we have procured to date meets our 
inventory requirements for Tomahawks, so we have about 4,000 in 
our arsenal. We have satisfied our inventory requirement. What 
we have got to get to is that next-generation weapon. That 
next-generation weapon could be an upgraded Tomahawk, could be 
another weapon that would show up at the competition. So we are 
moving forward with development of what has been referred to as 
next-generation land-attack weapon, and the key elements of 
that weapon will be its increased lethality, survivability 
beyond what Tomahawk brings today.
    So the future of Tomahawk 100 in the 2015 budget request, 
we will certainly revisit that as we build the 2016 budget. We 
are going to press forward with advances to our cruise missile 
line. We are today demonstrating and testing what I refer to as 
the Long Range Anti-Ship Missile, that is an air-launched 
version. A future increment which will be competed will be a 
surface ship-launched version, which will require development 
from whoever shows up from industry, and then downstream, there 
is modification of the Tomahawks that we have in our inventory 
and ultimately a recertification of those Tomahawks that we 
have in our inventory. So we are trying to keep it all in 
balance. We are keeping a close eye on our inventory numbers, 
and equally important, we are going forward in terms of 
advancing the capability of those cruise missiles.
    Mrs. Noem. Well, recertification is to begin in fiscal year 
2019. Is that correct? Do you see--because in fiscal year 2016 
is when you basically have it zeroed out as far as new 
Tomahawks, correct?
    Secretary Stackley. Yes, ma'am.
    Mrs. Noem. Because you believe that your inventory is 
sufficient enough to bridge the gap until we get past 
recertification and into a new weapon that could be developed?
    Secretary Stackley. Yes, ma'am, our inventory is very 
healthy.
    Mrs. Noem. Okay.
    Secretary Stackley. But we are keeping a close eye on the 
recertification timeline. We cannot delay that, so we have to 
get into recertification in the 2019 timeframe. There is that 
potential gap between 2016 and 2019 as far as Tomahawk 
production. Recertification is different from all-around 
production, and we are working with Raytheon in terms of the 
risks that this potential gap would pose on their factory.
    Mrs. Noem. But you do have some plans for modernization in 
fiscal year 2020, correct? Is that--could that not be 
streamlined a little bit better with recertification so that 
the modernization could happen at the same time these weapons 
are brought in and recertified----
    Secretary Stackley. Absolutely.
    Mrs. Noem [continuing]. So that it is a bit more 
streamlined.
    Secretary Stackley. Absolutely, and that is the part of the 
discussion that we are having with Raytheon. In fact, there is 
a fairly healthy R&D stream going towards Tomahawk for the 
modifications that we need for the missile.
    Mrs. Noem. Okay.
    Admiral Mulloy, did you have something to add?
    Admiral Mulloy. Yes, ma'am, I appreciate the question also. 
Clearly, as you pointed out, with the inventory we have is a 
very large number of these weapons, which we are continuing to 
modernize. There have been four steps. The most important one 
is a brand new digital radio----
    Mrs. Noem. Right.
    Admiral Mulloy [continuing]. Which we are installing which 
allows the combatant commanders, you know, carrying out 
national command authority missions to retarget the aircraft 
and have much more reliable communications, no matter where 
they are from satellites. That install is going forward. There 
are a number of other ones that we need to do, and those are 
also in the plan, but as we talked about, we are down in the 
Navy $31 billion. What we had to look at was, what do I have to 
do with a weapon that I have overcapacity on but I need to 
modernize and I need to certify? Part of the line, in fact 
actually your staff will find this, we have bought spares in 
2015 and 2016 such that when the line starts back up to do the 
certification, we have the appropriate amount from the vendors 
to keep going, but that period of time is we, on average, have 
shot 100 weapons a year. We have, as we looked at all the plans 
and met the requirements of the combatant commanders, in the 
areas that we have to take some risk in tough years, we have to 
have a path to reach ahead. And so this is one of the ones we 
looked at was we will analyze a shutdown. We want to fund the 
R&D to get the next weapon. We want to fund the R&D to make the 
current weapon work and take a much smaller view as compared to 
other parts of this budget, a smaller risk, and, you know, 
having looked at detail about what these weapons require and 
having personally been at sea with these, Tomahawks are amazing 
things. But they were also built when I was a junior officer, 
and we have modernized them, but we need to keep thinking about 
the future.
    Mrs. Noem. Well, that would be my hope, that as we 
recertify, that we would also look at modernization at the same 
time so it is streamlined and there could be some savings 
then----
    Admiral Mulloy. Yes.
    Mrs. Noem [continuing]. Rather than bringing those weapons 
back in to modernize just after they have been through the 
recertification process.
    Admiral Mulloy. Yes, ma'am, and we are looking at what 
could be done at that time because, as we say, this is on Block 
4, we can talk with a radio.
    Mrs. Noem. Right.
    Admiral Mulloy. The early ones I qualified with didn't have 
any of this. They were all just merely, not even GPS [Global 
Positioning System] capable, but we never looked totally down. 
We have never eliminated the ability to do camera and TERCOM 
[Terrain Contour Matching] guidance because in a GPS-enabled or 
a world that has electromagnetic deviations, you want to have a 
weapon that can still find a path, so we have never eliminated 
some of the stuff that made it work. The idea is to keep 
working to make it better.
    Mr. Forbes. The gentlelady's time has expired.
    Recognize the gentleman from Connecticut for 5 minutes. 
After his questions, we are going to recess for about an hour, 
unfortunately. We will be back at 5:00 if you could stay with 
us until that time.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    In light of the press of time, I won't talk about how the 
UConn Huskies are, men and women, are both in the Sweet 16.
    Mr. Forbes. And we hope they come in second. We will be 
supporting them strongly.
    Mr. Courtney. The women I don't think I would put much 
money on that.
    But anyway, Mr. Stackley, again, you laid out sort of the 
scenario with the CVN-73 in terms of, you know, the fact that 
it is sort of a pending question right now that sort of turns 
on whether or not we check, we, again, fix the BCA levels, as 
you put it, in your remarks, and again just for clarification, 
when you say BCA levels, you are talking about sequester? Is 
that correct?
    Secretary Stackley. Yes, sir.
    Mr. Courtney. All right. Because, I mean, obviously, the 
BCA has a different level also built into it, which is 
nonsequester, and I guess so, you know, everybody is sort of 
crystal clear, two questions: Number one, if the sequester 
levels go into effect in 2016 and years beyond, I mean, really 
it is not just aircraft carriers that are going to be impacted 
if that were to happen, and maybe you can just talk a little 
about that in terms of the spread of damage that would occur.
    Secretary Stackley. Yes, sir, and well, let's start with 
the fact that the budget that we submitted, the 5-year Future 
Years Defense Plan budget is about $38 billion for the 
Department of the Navy above that BCA adjusted cap level, and 
that is in 2016 through 2019. If we have to, if we have to 
budget to that BCA level or, alternatively, if we submit the 
budget at the current top line and it gets sequestered----
    Mr. Courtney. Right.
    Secretary Stackley [continuing]. We have already discussed 
the impact in terms of CVN-73 RCOH [refueling and complex 
overhaul], but you look across the rest of the board and you 
just take an average of $8 billion to $9 billion that is going 
to come out of the Department of the Navy budget and you try 
assess where it is going to come, and we have very limited 
alternatives in terms of where we are going to pull it. So it 
is going to clearly impact our procurements, but it is also 
going to impact the size of the force and the way we operate 
it, and that is going to directly impinge on our ability to 
meet our requirements in terms of the Defense Strategic 
Guidance.
    So whether it is a shipbuilding program, an aviation 
program, whether it is the depot maintenance schedule, whether 
it is the number of ships and aircraft that not necessarily 
that we are able to deploy, but we are able to surge in the 
event of crisis, those numbers are all going to come down. And 
there is--we have done everything we can inside of our lines to 
wring out our costs of doing business. We have done everything 
we can in terms to try to drive down the cost of our major 
weapons systems, the cost of our operations, and we have been 
starting to cut our quantities, so, at this point forward, 
deeper cuts into that top line are going to go directly at the 
tip of the spear, and we are going to be looking at, in the 
2016 budget build, at that, at that extreme case.
    Mr. Courtney. So, for example, DDGs, submarines, you know, 
littoral combat ships, I mean, what does that mean?
    Secretary Stackley. Well, the CNO has already stated in 
testimony that we could be looking at three fewer DDG-51s in 
the next budget cycle, or if we are at BCA levels, a Virginia-
class submarine, that is at risk, the CVN-73 which we have 
already talked to at length. Each program is going to be 
revisited in terms of we have to maintain a balanced force. We 
have to look at our near-term requirements in terms of 
combatant commander demands. We are going to end up taking risk 
in terms of future readiness because our investments are going 
to end up bearing a very tough brunt of further reductions.
    Mr. Courtney. Well, thank you. I mean, I think, you know, 
my friend Mr. McIntyre raised the issue of the ORP [Ohio 
Replacement Program] funding which I have asked Secretary Hagel 
and Secretary Mabus about, and I mean that is definitely a 
long-term, relatively long-term, you know, fiscal challenge 
that we have to fix or deal with, but obviously, right now, we 
have got to not lose sight of the fact that sequester didn't 
evaporate with the passage of the budget last December and the 
spending bill. And I think, you know, laying out the damage, as 
you just did, I think is a pretty powerful warning to people 
who care about a 300-ship Navy and our national defense, that 
this is right now, you know, in front of us, and we have just 
got to, you know, figure out ways to turn off that sequester.
    Secretary Stackley. Yes, sir. The effort of Congress last 
year to give us the Bipartisan Budget Act gave us 2 years of 
breathing room and gave us a funding level above those BCA 
capped levels. That is greatness. However, if we allow this 
time to lapse and we don't address the longer-term issue, then 
we will be sitting here next year talking about the devastation 
associated with BCA, and we will be having the same 
conversations we had last year regarding sequestration and what 
the impacts are to our ability to meet our requirements for 
national security.
    Mr. Forbes. The gentleman's time has expired.
    We will recess until right after the votes, and reconvene 
immediately upon the votes.
    Thank you, gentlemen, for your patience.
    [Recess.]
    Mr. Forbes. I know these votes interfered with your 
schedules. But that is what we are here to do.
    So, at this particular point in time, I would like to 
recognize Congressman Wittman, who chairs the Readiness 
Subcommittee, for any questions that he might have for 5 
minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Vice Admiral Mulloy, Mr. Stackley, Lieutenant General 
Glueck, thank you so much for joining us today. We really 
appreciate your perspective in this challenging time to figure 
out how we put the pieces of these things together.
    Lieutenant General Glueck, I want to begin with you and go 
from the perspective of the Commandant in his words about LPD-
17 and that the LPD-17 hull form should be what we use as the 
replacement for LSD. Can you elaborate a little bit on why that 
LPD [landing platform/dock] hull form is the preferred platform 
for replacement of the LSD? What are its capabilities? How does 
it meet the Marine Corps' needs? And if you can put that in 
perspective about how the Marine Corps sees its structure going 
in the future and why that is so important for capability 
within the Marines.
    General Glueck. Thank you, sir, for that question. And also 
thank you for your support to our Wounded Warriors. It is 
greatly appreciated.
    I think when you look at the LPD-17, it has been a success 
story for the Navy-Marine Corps team. And we are working 
through a lot of the bugs in that right now. So we view it as a 
proven performer. As you look at what I believe are the 
requirements for the new normal that exists out there today, 
you know, it is going to be independent deployers, as, you 
know, Admiral Locklear has talked about that his requirement 
out there as a combatant commander is in the neighborhood of, 
you know, 50, 54 ships to maintain that engagement.
    And we see that ability to be an independent deployer that 
the LPD-17 hull and form brings in terms of their ability to do 
C2 [command and control], the aviation capability, the medical 
capability, and the surface capability are all the type of 
capability that you want in a future ship to be able to do the 
things that our Nation requires them to do for stability.
    Mr. Wittman. Secretary Stackley, in that realm of the 
perspective of the Marine Corps and also the Navy about the LPD 
hull form, its capability, its need to be put into service as a 
replacement for the LSD, understanding, too, that we have a 
requirement for 38 amphibs; we are at 28 currently.
    From your perspective, and hearing that the Marine Corps 
looks at that as being able to meet their need, if the funding 
was available, in your opinion, does Navy and Marine Corps need 
another LPD?
    Secretary Stackley. Let me answer that a couple ways. 
First, you go back to the basic requirement, which CNO and 
Commandant have agreed to in terms of the lift capability that 
our Navy and Marine Corps team needs in total in terms of both 
major combat operations, but more prevalent is just the routine 
operations that are being conducted globally today.
    So you have a balanced amphib [amphibious] force of 38 
ships that are required to meet that requirement. And that is a 
mixture of big-deck amphibs, the LPD-17 hull form, and today 
the LSD-41. That gives you the total lift package.
    Now, we don't have a plan to get to 38 ships. We have a 
plan to get to 33 ships, which introduces some risk in terms of 
being able to provide the total lift for a major combat 
operation. But Navy and Marine Corps have agreed that that is 
acceptable risk.
    Now inside of that, when you take a look at the LSD-41/49 
class and you say, well, should we continue with the LPD 17 
hull form as replacement for LSD-41/49 class, the answer is 
that is a lot more capability than the LSD-41/49 have today.
    But the other thing that the Marine Corps is wrestling with 
is their vehicles, their equipment that they deploy with is a 
lot more than they had when the LSD-41/49 class was being 
built.
    So I think General Glueck and his team have worked--worked 
hard in terms of trying to determine what the future lift 
requirements are. And, you know, under those parameters, the 
LPD-17 hull form is a better fit for the Marine Corps 
requirement, independent of that 38, 33, total number of ship 
requirement.
    Now, the other thing we have to balance that with is 
affordability. And that has been one of the challenges. So, 
right now, we are completing the analysis of alternatives [AOA] 
for the LSD-41 replacement, referred to as LXR, and the LPD-17 
is prominent in that analysis of alternatives. And what we have 
to wrestle with is, how do we get to a hull form that does 
provide the degree of lift and capability that the LPD-17 does 
but within an affordable top line.
    And then the last, the last thing that we are wrestling 
with, which doesn't show up in the AOA, it doesn't show up in 
terms of Marine Corps requirements, is the industrial base 
considerations. Now, when we look at shipbuilding, the area 
where we are most fragile is in our amphib ship construction. 
And it is just the nature of the beast. LPD-17 production, you 
know, we have built out--we are building out our last of the 
LPD-17s. We don't require construction of the LXR to start 
until about the 2020 timeframe. And so this gap cannot be 
filled simply with big-deck amphibs. So we are wrestling with 
how to best mitigate the gap in production, how to deal with 
the affordability issue that this budget stresses, and then how 
to meet the Marine Corps' requirement in terms of lift 
capability that an LP-17 would bring to the fight.
    Mr. Wittman. Very good. Thank you, Mr. Chairman.
    I yield back.
    Mr. Forbes. Gentlelady from Hawaii is recognized for 5 
minutes.
    Ms. Hanabusa. Thank you, Mr. Chair.
    And aloha, Vice Admiral. Good to see you again.
    Mr. Stackley, one of the things that has always plagued us 
is really the question, what is the number? What is the number 
that we need? You know, we have heard 306. We have--we are at 
283. We had former Secretary of the Navy John Lehman here, who 
was the famous almost 600. He corrected us and said he wasn't 
quite at 600. And of course, Admiral Roughead was here, too, 
and they were, like, 346, 348 or vice versa.
    But then when the question then rises, okay, what comprises 
that number? Then everyone sort of says, well, it depends on 
what we need it for.
    But we have got to acquire, as you know, and the build out 
is going to be determined, I call it policy by acquisition, 
because whatever we buy and we acquire kind of sets it for the 
future.
    So what is the number? What is the number that we need? We 
have got to pivot to Asia-Pacific that Admiral Locklear has 
made very clear that he doesn't feel like he has got enough 
ships to do that. So what is it? Where are we going to go?
    Secretary Stackley. Yes, ma'am. Let me start with just the 
documented requirement. The Navy has a document referred to as 
the Force Structure Assessment. It was last completed in 2012, 
delivered to the Hill last year, signed out by the CNO, and 
that is for a balanced force of 306 ships: 11 aircraft 
carriers, 33 amphibious ships, 88 large surface combatants, 52 
small service combatants, 48 attack boats, et cetera.
    So 306 is the balanced force structure. But clearly, it 
factors in affordability. So in his--in one of his hearings 
earlier this year, the CNO, when answering this question, 
described that, well, to meet the combatant commanders, the 
full range of combatant commanders' demands or requirements, it 
would take a 450-ship Navy. And nobody is contemplating a 450-
ship Navy today.
    So what we are struggling with is what can we afford and 
ensure that it is a balanced force. And then how do we take 
that 306-ship Navy that is in the Force Structure Assessment 
and meet to the best of our ability the combatant commanders' 
demands. And that has going towards things like forward-
deploying ships, so you get greater operational availability, 
greater presence. Take the LCS [littoral combat ship] class and 
look at 52-ship class and having 26 of them deployed at any one 
time, and just getting more mileage out of the ships that are 
in the force, recognizing that we are going to be limited in 
terms of the force structure that we can build with the budgets 
that we have.
    Ms. Hanabusa. The Army has said that they have more ships 
than the Navy. Is that true?
    Secretary Stackley. Well, first, I would describe that the 
ships that the Army is referring to are predominantly lift 
ships, prepositioning ships. But, otherwise, beyond those 
larger ships, what the Army would call a ship wouldn't meet the 
Navy's definition of a ship. And I will just stop right there.
    Ms. Hanabusa. But the question is, for those that might 
meet the definition of a ship, how many are we talking about?
    Secretary Stackley. The Navy--the maritime, which includes 
Military Sealift Command, the Navy, we have a portion of our 
fleet, which is referred to as maritime prepositioning ship. 
And so we have a number of ships that are prepositioned with 
equipment loaded out in the event of a need for immediate 
response to a crisis.
    Beyond that, we have a Ready Reserve Fleet that are ships 
that could be called up in the event that the Nation determined 
that we wanted to activate these Ready Reserve ships. Total 
number of those, I would have to get back to you with an exact 
number. It is pretty well accounted for. But you are in the 
double digits. A few years ago, it was about 50-plus Ready 
Reserve ships and 19-odd pre-pos [prepositioning] ships.
    Ms. Hanabusa. Before we broke, the statement you made that, 
of course, I find troubling--I represent Hawaii--is the fact 
that you said that even the Virginia-class subs would be at 
risk, the two Virginia-class subs, at the sequester, if we 
don't do anything with the sequester in 2016. So when you say 
that, what do you mean? That we are not going to be able to 
build the two? Or the two are not high enough in terms of 
priority that they will be continue to be considered what we 
need?
    Secretary Stackley. Let me start with the requirement. So 
we have a requirement for 48 attack submarines inside of that 
Force Structure Assessment. Today we are at 54. So today it 
looks like we have a surplus to the requirement, but the 
reality is that during the period of the 1990s, we fell short 
in terms of building out submarines. And so we need to sustain 
a two-boat-per-year pace to minimize the shortfall that we are 
going to be staring at in the 2020s.
    So in the latter portion of the 2020s, 2029 timeframe, we 
are going to--our projection right now is we will have 41 
attack submarines against a 48-boat requirement. So that is a 
screaming need.
    So within the budget that we have submitted, we do, in 
fact, sustain two boats per year. And our intent is to sustain 
two boats per year except for those years in which we will be 
procuring the Ohio replacement program submarines. So there 
will be years when we are procuring one Virginia per year.
    When I discussed what happens at the BCA levels, again, 
these are the deliberations that we are going through right now 
as we build the 2016 budget and we take a look at the choices 
that we would have to make if we are down to the BCA levels. A 
Virginia is under discussion in terms of whether or not it 
would fit within our top line, along with the three DDG-51s, 
along with the CVN-73 RCOH, along with a number of other ships 
and aircraft in our program.
    Ms. Hanabusa. Thank you.
    I have exceeded my time. I yield back, Mr. Chair.
    Mr. Forbes. Thank you.
    General, you have been saying that you need a track 
replacement for the legacy Amphibious Assault Vehicle fleet as 
your number one priority for a long time. Now you have shifted 
plans to buy a wheeled vehicle. Can you explain to the 
committee, for the record, what has changed and where your 
priorities are now?
    General Glueck. Thank you for that question.
    Our requirement has all been based on the requirement to 
replace the AAV, which is a track vehicle that is coming up on 
over 40 years of age.
    Back 25 years ago, we developed a concept called Ship-to-
Objective Maneuver. And three elements of that were the MV-22, 
the LCAC [Landing Craft Air Cushion] and then an AAAV [Advanced 
Amphibious Assault Vehicle], which was a high-speed vehicle, 
track vehicle.
    After a quarter of a century of research, and we looked at 
this in many different ways, and actually a program name 
changed to the EFV, you know, it was canceled. And it was 
unaffordable.
    We kept up an ACV directorate at that time, an advanced 
combat vehicle directorate, that was focused on doing the 
research on high speed technology to see if it was actually 
realistic to achieve that goal in an affordable way, would give 
us the operational capability that we wanted.
    After 2 years of research, we found that a track vehicle 
was able to get up on the plane and it could give us the 25 
knots. However, there were very many tradeoffs to be able to do 
that. And those tradeoffs were considered to be unacceptable in 
performance potential to actually assure where 90 percent of 
the vehicle would have its life ashore. So it was optimized for 
10 percent of its mission and not optimized for 90 percent of 
its mission.
    So we went out to the Nevada test facility out in Carson 
City, Nevada. And they have all the vehicles out there, all the 
track vehicles we own, as well as all the wheeled vehicles that 
we have in the inventory today and included the MPC, which is a 
program that we had earlier that we were working on, Marine 
Personnel Carrier. And we got a chance, took the Commandant out 
there. We drove in every one of the vehicles. Went over their 
course. And, you know, we saw that the difference between the 
wheel technology and track technology. And, quite frankly, over 
the past 20 years, the advancement in wheel technology has far 
exceeded that of track technology because of the commercial 
demand.
    And so we found that because of the great leverage that we 
have gotten from the commercial industry, that the capability 
of the wheeled vehicle far exceeds that of a track vehicle. So 
that is where we set up the program now to go ahead and pursue 
the ACV [Amphibious Combat Vehicle] as a wheeled vehicle.
    Mr. Forbes. Thank you, General.
    Can any of you explain to us what the GEF, the Global 
Employment of the Force?
    Admiral Mulloy. Sir, that is a classified portion of--it 
falls out of from a planning guidance that basically says, when 
I have so many assets, how do I break down what I would send 
for where? So it is created by the Joint Staff working with the 
Secretary of Defense and then the services as a classified 
annex of how you would use the force. But it also then drives 
to you later the states you have to set up. So we could 
certainly provide something in writing back in terms of more 
about what that is. But it is less in the resourcing area. It 
is definitely in the planning area. But ultimately it does 
drive us for a long-term view about what you have to have.
    Mr. Forbes. Admiral, do the combatant commanders have any 
role in that, in creating that?
    Admiral Mulloy. I know they are involved with when it gets 
reviewed and developed. I believe it is developed by OSD 
[Office of the Secretary of Defense] Policy and the Joint 
Staff. It is staffed out for them to look at it. But I would--I 
have to get back to you with the exact specifics of their role. 
But almost everything we do under the reorganization, going all 
the way back to Gramm-Rudman, is the combatant commanders have 
a direct input to the Secretary of Defense on a wide variety of 
items. So they do look at that.
    Mr. Forbes. The question I would ask each of you, if you 
would, for the record for this committee, if you would provide 
a time when this committee could review that in a classified 
setting, and we are happy to do it in a classified setting. We 
have made those requests, and so far just haven't been able to 
look at that. But we would like to do that. I think most of our 
members would.
    The second thing that I would like to ask, Mr. Secretary, 
and I know this is no surprise to you, is aircraft carriers. We 
talked about earlier where you said there is a statutory 
requirement for 11 carriers. And I know that you appreciate 
that. Secondly, we know that Congress had allocated and 
appropriated money for at least the planning phases of that 
carrier for this cycle, which I think was about $243 million. 
Am I off a little bit on that?
    Secretary Stackley. 245.
    Mr. Forbes. 245. It is my understanding now, correct me if 
I am wrong, that the Navy has basically said, we are not going 
to utilize that, those planning dollars now. Is that correct?
    Secretary Stackley. Partially. So, of the $245 million for 
planning, a portion of that was associated with defueling the 
aircraft carrier, a portion of it was associated with 
modernizing the aircraft carrier, and a portion of it is 
associated with the refueling piece. And so we are moving out 
on the defueling piece because it is applicable to either path, 
whether we inactivate or do the complex refueling overhaul for 
CVN-73. So that is moving out. That is about $63 million. That 
leaves $182 million that we have unobligated today that is 
pending a determination of which path are we on, inactivate or 
refuel.
    Mr. Forbes. Now, help me with this, if you would. And, 
again, please don't think I am talking about any one of three 
of you because I know this is not necessarily your decisions.
    But I remember when we looked at sequestration for a long 
period of time and the President's budget continually ignored 
sequestration. And we would ask, how come your budgets aren't 
reflecting sequestration? And the answer we got from the 
Pentagon was consistently, oh, this is so horrible, we can't 
possibly look at it because it would be too impactful, so we 
are just assuming it is going to go away.
    And then we hear now as we look at the President's budget, 
I think your statement was, and the nomenclature doesn't 
matter, but we are going to take a pause because we are going 
to see what happens to sequestration.
    And when I am looking at the President's budget, why didn't 
the President include enough money to bump up to do that 
carrier in his budget? Because if it was the law, if it is, as 
everyone says, so strategically important for us as a Nation, 
the President didn't limit himself to what sequestration called 
for, he bumped up those numbers. Why wasn't the carrier dollars 
included in that budget that the President sent over?
    Secretary Stackley. I am going to start this response and 
then I am going to have Admiral Mulloy join in here.
    My simplest description for this is last year, I think we 
built six different budgets. And whereas normally we would 
build a budget and refine it over time, last year we were 
literally building a half a dozen different budgets. And this 
is and around things like government shutdowns and furloughs 
and everything else that was taking place.
    And so we did not have clarity in terms of what budget was 
going over to the Hill because we had not, one, received the 
BBA had not been enacted yet, so we weren't sure which 
direction Congress was heading in with 2014 and 2015. So there 
was a lot of uncertainty very late in the day in terms of our 
budget build process.
    And when the determination--when the BBA became clear, and 
the determination was we are going to retain that carrier if we 
can retain this top line, frankly, at that stage of the budget 
process, it was too difficult to move 7 billion into--inside of 
that top line. And that is my simplest, clearest explanation of 
where we are and how we got there.
    And Admiral Mulloy can probably improve upon that.
    Admiral Mulloy. Yes, sir. I would say it all comes down to 
the timing. They were developing the plan to--when 2014 and 
2015 locked in, as the Secretary pointed out, 2015 was a 
dramatic cut, but we were able to balance and work with OSD to 
be able to--and also appreciate the fully funding of the 2014 
submarine that was done by the Hill. And so items came up that 
freed some money, but not to the level we needed to have.
    As OSD went down and looked at how do they lock all these--
the DOD [Department of Defense] budgets, the Navy point was, 
here is money, we are going to fix some parts of shipbuilding. 
But the carrier became a key component at the end. We have been 
directed to continue to develop as work in POM-16 [Program 
Objective Memorandum-16], given the DOD budget, across the FYDP 
of that, what they call the green dash line, is that DOD will 
work for resources to solve problems. The Marine Corps end 
strength was one small component. The Navy, which is the 
clearest and largest component that starts in 2016.
    And so I think they are looking for what happens in the 
2015 going to 2016 from the Hill. What does that look like. And 
then economically. But we are going to develop a plan that has 
the carrier in there as part of the Department of Defense 
budget.
    Mr. Forbes. I guess I still scratch my head a little bit on 
if this carrier was a priority and if it was necessary to meet 
the strategic guidance for 2012, which I assume it is, because 
we have constantly been told it was, I don't--I am still 
grasping with why the President didn't include it in his budget 
when it came over here.
    Admiral Mulloy. Sir, all I can say is, again, as Mr. 
Stackley pointed out, we had six different budgets. If you 
remember, last summer, DOD could not believe that we could not 
cut two or three carriers. The Navy, through a tremendous 
effort led by Mr. Stackley in the area of what it called good 
stewardship. And of all the areas we tried to tighten, myself 
as budget officer with execution and where can we make money, 
we freed up money out of the Navy budget to be able to reduce 
that number down. And it really came down to being as you are 
spinning a lot of plates at the end as you lock this in 
January, I believe that it was the Navy is saying is, you know, 
this really isn't there yet, this is our budget. And everyone 
said, we really want it in. We will go back and do it again. 
Because it is--2015 was tight with the BBA. And we had the 
room, as we showed you before, was, we can slide the carrier 
because the Stennis comes later. We can make a decision in 2016 
to start the ship and just still get it done. Basically it 
will--we can still get down out of the dry dock in Newport News 
before the Stennis comes in. It is pending upon economic 
requirements. And that is really all I can tell you right now, 
sir, on my understanding of my money as I lock that budget.
    Mr. Forbes. And we appreciate all that you guys have done 
and the terrible situation you have been in with budgets.
    It is just as we look at the carrier and we hear the 
rhetoric kind of coming out of the White House of why we 
haven't made a decision, but we see you taking the appropriated 
dollars that we had for the planning, for the refueling, not 
utilizing those, we see no money in for the request to do the 
acquisitions that would need to be done this year, and we don't 
see it in the FYDP, but we saw it in before, it is kind of like 
that old adage, if it walks likes a duck and quacks like a 
duck, it is probably a duck. It looks like to us the decision 
has been made to take the carrier out. But you are saying, 
``but we could put it back in,'' as opposed to saying, ``we 
have delayed the decision.''
    And I hope that is wrong. And I hope Congress perhaps can 
send a message that we need to correct that. But we certainly 
don't fault any one of the three of you for that.
    Secretary Stackley. Sir, the only thing I would add to what 
you just described was the statement was actually a little bit 
more clear in terms of we could put it back in. The statement 
was we would put it back in if we can hold on to the budget 
levels that we submitted with this budget.
    Mr. Forbes. Last two questions. And then I want to get Mr. 
Langevin's questions in.
    Cruisers, you know, that is a big question. None of us so 
far with the plans we have got have a comfort level that we 
can--will ever see those cruisers come back out, at least on 
the plan that we have now.
    You know, and some of us are concerned that really what we 
see is an elaborate way to bring about early retirement of 
these cruisers after Congress has twice rejected this idea.
    What comfort level can you give to this subcommittee that 
these cruisers are going to come out?
    Because everything we see is you telling us, as you just 
said with the carrier, we will put it back if we get more 
money. We know destroyers are next on the chopping block 
perhaps to put some in, you know, next time. Give us that 
comfort level that this committee would have that these 
cruisers will see life again.
    Secretary Stackley. Yes, sir. Let me start with a few key 
points. One, today, we have $2.2 billion inside of the Ship 
Modernization Overhaul and Sustainment Fund that Congress 
established. In the last 2 years, when the Navy was struggling 
with what our budget levels would be and our ability to retain 
those cruisers, that fund was not in a working condition where 
we could actually put it to work. What you all did with last 
year's budget in terms of giving it life out to 2021 gives us 
the ability now with certainty to put that money to work.
    So a key part of the cruiser modernization plan, which, 
one, gives you the ability to hold us accountable but, equally 
important, gets us going, is we need to--our proposal is that 
we take those 11 cruisers and we commence effectively 
immediately CG-64 goes into her modernization at the end of 
this year, and we would bring the other 10 cruisers into the 
first phase of the phased plan, which starts with the hull, 
mechanical, and electrical systems. And we would not wait a 
number of years, but we would go into the 10 ships, baseline 
their material conditions, get the material on order, and then, 
working across the industrial base, phase and schedule those 
ships to when they can most efficiently be modernized for the 
hull, mechanical, and electrical systems. That is the front end 
of the program; $2.2 billion won't get us all the way there. We 
have some additional funding in the FYDP. And, frankly, we need 
to work with you all to come up with a mechanism to replenish 
the fund that has been established.
    But in the near term, what we would be executing is a 
modernization program for the cruisers that will bring their 
material condition up to the level that it needs to be to get 
them their extended service life. And then when you look 
downstream in the 5-year period from now when they are 
completing their HM&E modernization, then the Nation has 
choices.
    What we are proposing is we would complete the combat 
systems portion of the modernization so that we can lockstep 
replace retiring cruisers, the first 11, one for one, with the 
fully modernized cruiser from the last 11 and then be able to 
keep 11 cruisers tied to our battle groups out into the 2040s.
    So, in terms of confidence and commitment, I think what we 
propose to do is work with you on the details, detailed on the 
front end. On the back end, what we would be dealing with is, 
okay, the funding stream that would go with that plan--and, 
frankly, we are relying on our ability to draw down the 
manpower associated with the cruisers and the operating and 
support costs during this period to help finance the combat 
systems modernization on the back end. So we are committed to 
giving you the level of detail that you need to give you 
confidence that we are going to execute.
    I think we can do this in a stepwise fashion so each step 
of the process Congress has a clear eye on the condition of 
those cruisers and our ability to complete the phases and so we 
do not lose momentum as we go through the entire process.
    Mr. Forbes. And we will look forward to kind of walking 
through that plan. We trust each one of the three of you, but 
we don't necessarily trust everybody else that might be 
dictating that. And we don't trust all of our colleagues in 
what they may do in budget discussions. That is why we want to 
make sure that we have a plan that is going to be workable.
    Last question I have is, has DOD performed a new analysis 
of mission needs to identify what capability gaps the Navy 
might need to address through a new shipbuilding program to 
replace the littoral combat ship? If not, then how can DOD know 
that it needs a new ship generally consistent with the 
capabilities of a frigate? Where is the properly validated 
requirements for this new program?
    Secretary Stackley. I am going to start, and Admiral Mulloy 
finish.
    The requirements for the LCS program are well documented. 
And right now we are moving smartly through the execution of 
that program in terms of the basic hull and then the mission 
packages.
    What the Secretary of Defense described in his guidance to 
us and then his subsequent announcement was that the Department 
is looking to increase the lethality of the LCS and something 
similar to a frigate. So we do have a requirements team taking 
a hard look at exactly what would that mean. What missions, 
what roles, what is the concept of operations, looking forward 
beyond first 32, to those next 20 small surface combatants. 
What is that concept of operations and the additional lethality 
that it would require, similar to a frigate.
    I don't want to predetermine the outcome of that review. 
The team, frankly, is locked up in a war room that we have set 
aside. What I would welcome and invite is your staff to visit, 
to join, to take a look at the process, take a look at their 
findings, interim findings along the way. And this then will be 
used as we put together our 2016 budget and look at either 
modifying the LCS or, if need be, a new ship class.
    In either case, when it comes to modifying an LCS, we have 
always contemplated future flights of LCS. So this could be a 
very simple, straightforward, in-stride modification, just like 
we do with other ship classes.
    If it equates to a new ship class, that is a very different 
picture. And so, again, just like every other discussion we 
have had today, a piece of this requirements definition is 
going to include affordability. So we have to strike the right 
balance between what is that degree of added lethality, added 
capability to an LCS that we need for the CONOPS [concept of 
operations] in which you will be operating, which includes with 
the rest of the battle force. And then what does that mean in 
terms of cost? And what does that mean in terms of schedule, 
when we would be able to introduce that capability for the 
small service combatant.
    Mr. Forbes. We are caught between two very powerful 
currents that both want to go in different directions. I don't 
know where the subcommittee ends up coming out. But we have got 
to make sure they have the right analysis so we can make that 
decision.
    Admiral, if you want.
    Admiral Mulloy. Yes, sir. What I would say is that the 
requirements paperwork almost has to come after. But as the 
Secretary pointed out, we do a lot of changes in other classes 
of ships. I mean, as you look at the North Dakota, the first of 
Flight IV, or the flight--I mean, the flight we are doing now 
with the South Dakota, is, there have been changes. I mean, the 
North Dakota is being built with vertical launch tubes in the 
bow and a wraparound array. Nothing to do with the original 
MNS/ORD [mission needs statement/operational requirement 
document] when the Virginia was designed had that in it. Yet 
the combat power and the design of that ship is fundamentally 
changing. Flight III Burkes are not having a whole new set, but 
they are fundamentally very different than Flight I when the 
Burke was built.
    So the Navy has a pattern of making changes to improve 
ships. So we really have to get the tiger team, with which I 
have some of my people on the staff, Admiral Aucoin does, Mr. 
Stackley is leader, is this key component. And then is it a 
change to the ship? Is a whole new ship? Either way, we can 
write some paperwork faster than we have to.
    I have a copy of the Nautilus, initial paperwork design 
written by--in the 1950s. It is 6 pages long to build naval 
nuclear power. It is not the document you would see that had 
for Virginia class.
    So I am not sure we have to go back to 6 pages. But I know 
we can work faster on that once we define what we have. And I 
think some of your staff coming to see this team or meet some 
of the people would be outstanding. Because the Secretary has 
taken it very seriously that we need to figure out what those 
next 20 are. But we need small surface combatants, going back 
to the FSA design, is small surface combatants fill a range of 
needs. They are not all at the high end, but they magnify and 
amplify phase 1 convoys, ASW [anti-submarine warfare]. They 
also support phase zero operations around the world in 
engagement. And that is what we need to go back to, what does 
the ship have to bring? And what does it have to have for the 
little higher end capability but mesh it into the whole class?
    Mr. Forbes. Thank you.
    Mr. Langevin, recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today. And we 
appreciate the benefit of your testimony. And grateful for your 
service. So thank you all.
    Mr. Secretary, let me start with you. In your testimony, 
you referenced the coupling of the Ohio replacement and the 
U.K. [United Kingdom] Successor programs and the need to 
maintain the current schedule and funding profile. Could you 
outline for us your progress in driving costs out of this 
system as well as some of the serious risks that would occur if 
there was any further slippage to the program?
    Secretary Stackley. Yes, sir. Let me first describe that 
today we are on schedule in terms of both the Ohio replacement 
program schedule and supporting the Successor. We have 
effectively prosecuted the design of the common missile 
compartment, which is the major portion of the design between 
us and the U.K., ahead of when it would normally have been 
designed, developed and designed, if we were just doing it for 
the Ohio replacement. But that was done to support their 
schedule, but it also helps us in terms of retiring some of our 
risk ahead of the Ohio replacement.
    In terms of progress regarding cost, we are going after two 
pieces of the cost. We are going after the development costs, 
and we are going after the unit costs for the submarine itself. 
And we have a, what is referred to as a design for 
affordability program in place between the Navy, Electric Boat, 
and Newport News all participating, just taking a fundamental 
look at, how is this new boat going to be designed? Where are 
there opportunities to reduce its cost, either in terms of the 
way we build or the way we buy?
    But most fundamentally, the key portion in terms of keeping 
cost and schedule under control is reusing technology to the 
extent possible. So we are porting over as much of the Virginia 
systems as we can that will apply to the Ohio replacement as 
well as and equally important the strategic programs associated 
with missile launch.
    So key components that drive both cost and risk are being 
tackled through mature designs and reuse. And then what that 
leaves is the balance of the boat and new development that is 
associated with improving survivability of the Ohio replacement 
to last well into this century. That development has very 
dedicated efforts to retire the risk. And that is where a lot 
of our current research and development is focused.
    Mr. Langevin. Thank you for that answer, Mr. Secretary.
    On another program, as we watched the deployment of the 
updated laser weapon system onboard the USS Ponce this year, I 
know that the Navy is also working on other solid state laser 
technical maturity program technologies to put a higher power 
integrated weapons system to sea in 2016, as I understand it.
    I particularly applaud the inclusion of a dedicated funding 
stream in the budget for integration of these capabilities onto 
existing platforms. I think that is a very positive 
development, positive move in the right direction.
    Could you offer an update from your perspective on the 
status and the promise of these directed energy capabilities at 
sea as well as other high energy weapons systems, such as 
railguns.
    Secretary Stackley. Yes, sir. In terms of directed energy, 
lasers and rail--electromagnetic railguns are the two principal 
weapon systems that we are focused on right now. They both have 
great promise matched by great challenges. So in terms of laser 
development--in fact, we have gone down several paths trying to 
get to a laser weapon system that would be appropriate for 
shipboard weapons system.
    The solid state laser broke through in terms of the 
greatest potential. And what we are literally doing on Ponce is 
we are not going to wait for the normal, natural development 
timeline. CNO has basically said, let's get it out there. Let's 
get it out there. Let's get it into the sailors' hands, let's 
start to figure out what it means to operate in a marine 
environment onboard ship a laser weapon system.
    So we are going to run into all sorts of challenges that we 
didn't fully anticipate. But the learning that is going to come 
with putting that smaller scale laser weapon system on the 
Ponce is going to accelerate the longer-term potential and 
promise that lasers bring.
    Not 2016, sir. We have got a ways to go in terms of 
maturing the technology for the broader shipboard application. 
But it is also on our priority list because of the potential it 
provides.
    Railguns are a bit different. Railgun is an extremely 
unique technology. You are probably well aware we have 
demonstrated its capability down at Dahlgren, the Naval Surface 
Warfare Center. But we have several areas that we have got to 
tackle in order to weaponize that potential. One is something 
as simple as the barrel of the gun. We are dealing with large 
electrical power. And so the barrel of the gun has got to be 
able to handle, frankly, the megajoules that we are looking at 
there.
    A second is the projectile itself. You know, we are going 
to be firing a projectile Mach 7. We need to ensure that--there 
is a lot of testing that goes to developing a Mach 7 projectile 
coming from the barrel of a gun. And a third part of the kill 
chain is simply the fire control system.
    So we have got a gun right now that on land, we can point, 
we can fire a slug at Mach 7. What we have got to do is get to 
a fire control system associated with this gun that can spot 
the target and put the round on the target.
    So those are three of the key technologies that we are 
continuing to work while we demonstrate the basic technology. 
We are going to, just like the laser weapon system, we are 
going to get a smaller scale railgun and outfit onboard one of 
our joint high speed vessels again to get it into the fleet's 
hands, to demonstrate, and to create more momentum behind that 
development.
    Mr. Langevin. Thank you. Well, I am a strong supporter of 
these type of technologies. I think are they are game changing, 
and they are going to help the fleet be much more effective 
as--and that goes across the services once these technologies 
are further developed and ready for deployment.
    Last question I have is we have invested billions of 
dollars to ensure that our aircraft carriers project--can 
project power anywhere on the globe. And it is critical that we 
continue to make the investments to ensure that we are 
leveraging our carriers' capabilities to the maximum extent 
possible.
    How do you envision Unmanned Carrier Launched Surveillance 
and Strike enhancing the carrier wing?
    Secretary Stackley. Sir, I will start this response, and I 
will have Admiral Mulloy cap it off.
    So, today, we have this demonstrator called UCAS, the 
Unmanned Combat Air System, that has basically demonstrated the 
ability to operate unmanned fixed wing on and off of an 
aircraft carrier.
    The next big thing we have got to figure out is how to 
integrate it in the air wing. So it, in fact, does bring to 
bear its capabilities in increasing the overall air wings' 
capabilities.
    In the near term, you described the Unmanned Carrier 
Launched Aerial Strike and Surveillance system which we simply 
call UCLASS. We are working on the request for proposal to go 
out and compete the development of UCLASS so that we can deploy 
nominally a half a dozen of these aircraft on a carrier late in 
this decade to, in fact, not just integrate it in the air wing 
but start to exploit some of the capabilities that it will 
bring.
    Clearly, its high endurance is going to give the Navy the 
ability to provide ISR [intelligence, surveillance and 
reconnaissance] capabilities for the carrier 24/7. It is going 
to give us the ability to provide orbits, 6 to 1,200 miles away 
from the carrier, 24/7, in the case of the 600-mile type of a 
range. But beyond that, we are going to give it a strike 
capability and then have the ability to start going after 
targets of opportunity.
    Beyond that, what I would propose is that we offer you a 
classified brief so you can see where, in fact, we are looking 
to go with this capability in the future.
    Mr. Langevin. I would certainly welcome that.
    And, Admiral, did you have something to add?
    Admiral Mulloy. Yes, sir. I would like to further emphasize 
that in the two parts of Mr. Stackley talked about risk 
reduction. Right now, we are working with the UCAS, and we have 
decided to extend that program, so we are working above 
threshold program to come to the Hill in 2014, and you will see 
in 2015 an added item to continue to fund for $50 million until 
we actually get the UCLASS vehicles from this RFP [request for 
proposal] to start coming. Because it comes in three sections, 
sir. There is the air vehicle itself, which we are expecting 
RFP. There is the carrier segment, which is onboard handling of 
the vessel. And there is a communication and command and 
control. Do you operate in the area? Does the CAG [carrier air 
group] operate it? Does it turn over to a combatant commander 
for the use, if we get extended range on it? So all three 
sections have to come together. And the UCAS allows us to work 
those. Some of it will be on an aircraft carrier. Some of it 
will be actually flying at Pax River [Naval Air Station 
Patuxent River]. Some may go to Fallon to work into the air 
wing. So we are asking for the support.
    So we are asking for the support for the ATR [above-
threshold reprogramming] and for this budget item for UCAS. 
They all directly lead into the UCLASS program to retire the 
risk of all these segments. We really are excited that we 
acknowledged as a requirement in I think it was last year's NDA 
they said get six vehicles first, and that is where we are 
going on that was to get out there and get that on a carrier 
and operate and see where it can go. But on those, what are 
called key performance parameters, there are six and six key 
supported parameters, there is the key system attributes that 
all relate to the lethality, connectivity, modularity of that 
and the ability that it can operate on a ship, that it has to 
be able to operate at sea state 3 and be able to get to sea 
state 5. It has to carry weight, it has to fly long enough that 
it doesn't interfere with the air wing. You ideally want to 
make sure this goes off early and can either stay out of one 
full cycle or go out long enough that it doesn't interfere with 
the flight deck, that it supports the CAG and the air wing by 
being up all the time and not exhausting the crew. So you have 
to marinize it, it is different than a land-based item. It has 
to fit into what I call the flow of life in the battle group, 
that it enhances the battle group, and therefore, it enhances 
the combatant commander's needs, and that is what we are 
working through with the RFP directly ties to those parameters, 
sir.
    Mr. Langevin. Admiral, thank you for that answer, and I 
applaud the Navy's work in this area and being so forward 
thinking and working so aggressively to integrate this 
capability into the carrier wing so it can enhance our 
capabilities exponentially.
    Thank you, Mr. Chairman. With that, I yield back.
    Mr. Forbes. Gentlemen, thank you for your patience.
    As you know, one of the most important things of this 
hearing is the transcript we create, not just your testimony. 
We have submitted your written transcript or your written 
testimony, but I would like to give you any time you need now 
if there was something that we did not discuss that you think 
is important that we get in that transcript for you to be able 
to elaborate on now or something that perhaps was confusing 
that you want to correct.
    The other request I would make, not that you have to 
respond to this now, but if you would respond back to the 
committee, perhaps in writing, of those six budgets you 
described, which of the budgets did not include CVN-73 in the 
planning? Was it just the sequestration budget? And then if you 
can, give us a little written explanation. We are still kind of 
fumbling around to understand why we had time to plan for the 
$115 billion and the $26 billion, almost $141 billion extra, 
but we didn't have time to plan for the carrier.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mr. Forbes. And so, with that, General, would you like to 
start off with any comments that you think that the Marine 
Corps needs to make sure we get in this transcript that wasn't 
in your testimony?
    General Glueck. Thank you, Mr. Chairman.
    I would say that we request your support in a couple areas. 
One is the funding flexibility in the ACV way ahead. As you 
know, the program has been evolving, and we have some money in 
the budget, and what we would like to do is to be able to move 
some of that money around to be more effective and efficient 
with the funds that do exist, not asking for anything more.
    Secondly, we would like to get your support on the funding 
of the development of our high speed connector technology as we 
move forward. Since we walked away from the high speed vehicle, 
we now continue to pursue the high speed connector technology.
    And lastly, support of increased amphibious ship investment 
as well as the maintenance and inventories. Thank you, sir.
    Mr. Forbes. General, thank you.
    Admiral.
    Admiral Mulloy. Yes, sir, I appreciate the chance to be 
here. This is my first hearing, so I was very excited to be 
over here, but I will say even better than I thought, I look 
forward to talking to my family when I get home.
    I would say the areas to expand, not so much directly 
related to the cruiser but talking about ballistic missile 
defense, is the Navy's path ahead is the DDG program. We are 
building DDGs. Every one we are building now from the bottom up 
is BMD [ballistic missile defense] compliant, and we are 
looking forward to in fiscal year 2016 the very first of the 
Flight III, which will have the advanced, the AMDR [Air and 
Missile Defense Radar] radar and even greater capability to 
provide that. And so the path ahead for us is to have the ships 
converted, which is the Flight IIAs, we start the first one in 
2016. You will see in this budget is funding for three sets. We 
have to do the 2 years ahead of OPN [Other Procurement, Navy], 
and then we want to start a path. So we acknowledge converting 
the BMD Flight I and II ships, but we need to start doing the 
IIAs because they are not any BMD capable. Flight Is and IIs 
have some capability. The total need for the combatant 
commander is to raise the number of capabilities, and it is 
really not a cruiser issue; they are AAW [anti-aircraft 
warfare] ships. It is a DDG issue, and that is our path to fund 
that.
    The other one is linking up with our Marine Corps is, we 
support the tremendous efforts last year of the committees to 
allow us to move the second AFSB [Afloat Forward Staging Base], 
to fund it for SOF [special operations forces], other 
modifications, and to finish that design, which will also 
support our Marine Corps team. We are now looking at the 
capability of integrating AFSBs and MLPs [Mobile Landing 
Platforms] into more than just being a MPSRON [Maritime 
Prepositioning Ship squadron] or the maritime squadron offload. 
These will be able to go out and do exercises and advancements, 
and we are very excited about this connectivity of an AFSB, 
afloat staging base, would be a place for a Marine Corps 
Special Purpose MAGTF [Marine Air-Ground Task Force] to operate 
as well as our special forces. So the CNO and SECNAV [Secretary 
of the Navy] are very excited about, where can we take this 
kind of technology of those ships to support our national 
force, whether it is a national mission force or our Marine 
Corps team to react to problems around the world that then 
frees up the amphibs to remain tied to the amphibious group? So 
I think you will see more on that as we go, and you will see in 
the budget, we have added a third one in 2017 because we see a 
need for three of these around--Ponce has been there; she is a 
great ship. I was on her as a third-class midshipman, and she 
is still out there working, but we need to have a solution that 
solves problems. AFSBs are part of that. So, other than that, 
sir, I thank you very much for your time.
    Mr. Forbes. Admiral, thank you and thanks for being here 
for the hearing, and you did a great job. And, you know, our 
hearings are always fun and exciting, so they are always 
enjoyable.
    So, Mr. Secretary, we will let you finish up.
    Secretary Stackley. Yes, sir, I am probably just going to 
run through a list here just to cap off a few topics.
    Admiral Mulloy discussed the DDG mod program to get us up 
through the Flight IIs, IIAs. We are on track for that. This 
comes back a little bit, though, to the cruiser modernization 
discussion as well. So when we come back to you with more 
details on cruiser mod, what I would like to do is put that 
side by side with destroyer mod so you can see a few things. 
One, you will see how we are following through on that 
commitment on the destroyers. I discussed the John Paul Jones, 
you know, tracking and knocking out a ballistic missile target, 
at the same time working a cruise missile target. That is 
breakthrough capability. That came out of the destroyer 
modernization program. That is the Aegis Baseline 9 that she 
was, she was the first one to go through. So we are moving 
through that smartly. When you overlay a cruiser mod on top of 
that, a couple things will emerge. One is going to be capacity. 
So when we talk about scheduling cruiser mod, both the HM&E and 
the combat systems piece, what you need to take a hard look at 
is the capacity and when do we have the time to do that, when 
is it best to do cruisers versus destroyers, and that is going 
to be part of our calculus as opposed to dealing with one in 
isolation from the other.
    Second is we talk about upgrading through the Flight IIA. 
Flight III. Flight III is a great news story. We have awarded 
the AMDR missile--I am sorry, the AMDR radar development 
contract, and we are on track for the preliminary design review 
for that radar later at the end of this calendar year, early in 
fiscal year 2015. Similarly, we are doing the preliminary 
design review [PDR] for the ship to take a look at the ship 
impacts, and all of the concerns that had been previously 
raised regarding shipboard margins for power cooling, 
stability, and weight, those are all being clearly addressed, 
and so we see the ship PDR coming along very well. We see the 
development on the radar coming along very well, and we look 
forward to coming back next year in our 2016 budget request, 
where we will include the Flight III. Between now and then, we 
will continue to work with your staff to demonstrate the 
maturity of that design as it comes along.
    General Glueck discussed the amphibs, we discussed the 
amphibs. That is--when we look at all the industrial base 
issues that we have in shipbuilding, that is one that is most 
pressing, and it does not have a simple solution for all the 
reasons that we have discussed, but we do look forward to 
continuing to work with your subcommittee on this issue because 
it is so important to us.
    We have talked the CVN-73 at length, and I know we will 
continue to talk it, discuss the issues surrounding that as we 
go through the budget cycle, and you all deliberate on the 2015 
bill that you ultimately pass.
    Thank you for the discussion on LCS, I do hope that your 
staff or yourself get the opportunity to come over, visit our 
war room for those discussions.
    The last two things I want to wrap up on, one is our 
acquisition workforce. We are engineering-centric, rightfully 
so. Last year was tough, tough, tough on our workforce. All the 
pressures of the budget, all that churning of the budget, all 
the uncertainty, the layoffs, the furloughs put our workforce 
under great strain, but they hung in there. They hung in there, 
and they are back at it this year unfazed, very dedicated. What 
we have to do, and I look for you to keep a watchful eye on us, 
is to preserve our investment in that workforce as we go 
forward.
    Congress put in place the Defense Acquisition Workforce 
Development Fund that has been very instrumental for us to be 
able to build up that skill set and get our engineering force 
and our contracts officers, program management team up to the 
level needed to succeed in the development of these difficult 
programs. What we have to ensure is, as we face these budget 
pressures, that we don't go back to where we started and see 
the same type of fallout in terms of our shortfalls in program 
management and development that we had seen about a decade ago.
    Last is our development, our research and development. A 
lot of this discussion today was on major programs, building--
sustaining the current fleet and building the next fleet, but 
what we have to likewise keep an eye on is the fleet after 
next, our R&D investments. Those capabilities that we are 
looking at today, that we have to get across the long haul to 
deal with the threat which, frankly, is investing heavily right 
now. The threat is investing heavily right now in dealing with 
our vulnerabilities. We have got to ensure that as the budget 
pressures mount, we don't look at the R&D, we don't look at 
cutting that R&D stream and forgoing the capabilities that we 
have got to put in the hands of future sailors and Marines so 
that they can enjoy the same degree of superiority that we 
enjoy today.
    Mr. Forbes. Gentlemen, our country is very fortunate to 
have the three of you serving in the capacities in which you 
are serving. Thank you for giving us your time today, and with 
that we are adjourned.
    [Whereupon, at 6:01 p.m., the subcommittee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                             March 26, 2014

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7860.001
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.002
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.003
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.004
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.005
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.006
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.007
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.008
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.009
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.010
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.011
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.012
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.013
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.014
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.015
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.016
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.017
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.018
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.019
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.020
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.021
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.022
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.023
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.024
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.025
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.026
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.027
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.028
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.029
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.030
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.031
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.032
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.033
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.034
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.035
    
    .eps[GRAPHIC] [TIFF OMITTED] T7860.036
    
.eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 26, 2014

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MR. FORBES

    Secretary Stackley and Admiral Mulloy. The Department of the Navy 
(DON) wants to retain CVN 73 if funding allows, as she remains critical 
to maintaining presence, surge capacity, the condition and service life 
of our other carriers, and the industrial base. The President's budget 
(PB) request for 2015 maintains the option to refuel or inactivate CVN 
73. The Department noted a decision regarding inactivation or 
conducting a refueling complex overhaul (RCOH) is deferred to PB 2016. 
As the Navy begins development of PB 2016 estimates, alternatives 
regarding plans to commence RCOH planning are under consideration, 
influenced by Congressional action in FY 2015. The Navy has proceeded 
with ``next steps'' associated with the CVN 73 RCOH; specifically, the 
allocation of 2014 funding to expand planning efforts in support of the 
RCOH.
    In developing PB 2015, the fiscal uncertainty challenged and 
continues to challenge our ability to plan and budget over the long 
term. As we developed the Program Objective Memorandum (POM) for the FY 
2015-2019 Future Years Defense Program during calendar year 2013, the 
DON was faced with FY 2013 sequestration, civilian furloughs, a 
government shutdown, and continuing resolutions. The Secretary of 
Defense directed a Strategic Choices and Management Review to produce 
options and identify choices necessary to comply with the revised 
discretionary caps of the Budget Control Act of 2011 (BCA). Until the 
Bipartisan Budget Act of 2013 (BBA) was passed in December 2013, the 
DON was preparing for sequestration in FY 2014 and beyond.
    Due to this uncertainty, the DON was directed to produce several 
POM 2015 budget options, including one at the PB 2014 level (the higher 
caps of the BCA), one at the lower caps of the BCA (referred to as 
Alternative POM), and one at the PB 2015 level. The PB 2014 level 
provides the resources necessary to meet the Defense Strategic Guidance 
(DSG) and included the refueling of CVN 73. Under sequestration, we 
would not be able to meet the DSG and were compelled to inactivate CVN 
73 in the Alternative POM scenario.
    While the BBA provides some relief from sequestration in FY 2014 
and FY 2015, the funding level is lower than our PB 2014 request and 
sequestration remains the law in FY 2016 and beyond. Because of the 
time necessary to plan and execute such a significant force structure 
reduction while preserving capability in the process, the Secretary of 
Defense made the strategic decision to program for sequestration levels 
in the later years of our PB 2015 submission for large force cuts, 
including carrier strike groups. Past drawdowns have reduced force 
structure too fast with too little planning. The resulting problems 
required significant amounts of time and money to fix.   [See page 30.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 26, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The budget request included funding to support the 
inactivation of the USS George Washington but did not include funding 
request to support the complex overhaul or the investment requirements 
for the associated aviation wing. If the House of Representatives moves 
to restore funds associated with the proposal, will the Navy initiate 
the requisite contracts to obligate funds previously appropriated for 
the USS George Washington's complex overhaul? What is the tipping point 
for Navy to begin investment in this critical resource? What is the 
damage in terms of cost and schedule in delaying the award of the USS 
George Washington complex overhaul?
    Secretary Stackley and Admiral Mulloy. The President's budget (PB) 
request for 2015 maintains the option to refuel or inactivate CVN 73. 
The Department noted a decision regarding inactivation or conducting a 
refueling complex overhaul (RCOH) is deferred to PB 2016. As the Navy 
begins development of PB 2016 estimates, alternatives regarding plans 
to commence RCOH planning are under consideration, influenced by 
Congressional action in FY 2015. As discussed in recent testimony 
regarding the 2015 Budget request, the Navy has proceeded with ``next 
steps'' associated with the CVN 72 RCOH; specifically, the allocation 
of 2014 funding to expand planning efforts in support of the RCOH.
    Mr. Forbes. The Chief of Naval Operations approved a program of 
record decrease to the total aircraft procurement quantity for only 109 
P-8 aircraft, despite the validated steady-state rotational and 
warfighting contingency requirement for 117 P-8 aircraft. Please 
describe the risk incurred by this decision, and how does the Navy plan 
to mitigate the increased risk by procuring less P-8 aircraft than the 
validated requirement?
    Secretary Stackley and Admiral Mulloy. The Navy was compelled by 
fiscal constraints to lower the final P-8A inventory objective from 117 
to 109 aircraft. This change in the Program of Record does not alter 
the P-3C-to-P-8A transition. With 109 P-8A aircraft, the Navy can meet 
warfighting contingency requirements for major combat operations and 
assumes acceptable risk in maritime homeland defense. To mitigate this 
risk, the Navy will maintain an appropriate capacity of non-deployed 
aircraft carriers, surface combatants, amphibious ships, and other 
aircraft for homeland defense missions. Further, this decision is 
clearly ``reversible'' as P-8A production continues through this 
decade. If the calculus associated with this decision changes due to 
either a change to security requirements or a change to the budget 
outlook, then the Navy has many opportunities to appropriately revise 
the P-8A inventory objective.
    Mr. Forbes. There has been much debate over the past several 
months, primarily within the Department of Defense, to characterize and 
codify what the air vehicle attributes of the UCLASS system 
requirements should be as an unmanned, fixed-wing, carrier-based 
aircraft. Can you describe for us some of the primary Key Performance 
Parameters of the UCLASS air vehicle and how you expect some of those 
KPP's to mature over time after source-selection and after the aircraft 
is fielded?
    Secretary Stackley and Admiral Mulloy. All UCLASS requirements have 
been fully vetted and stable since the Capabilities Development 
Document was approved by the Chief of Naval Operations in April 2013. 
The Key Performance Parameters (KPPs) and Key System Attributes (KSAs), 
as reviewed and concurred with by the Vice Chairman of the Joint Chiefs 
of Staff (VCJCS), address endurance, sensor payload, weapons payload 
(including mandatory future growth capability), survivability 
(including mandatory future growth capability), aerial refueling (give 
& receive), affordability, and schedule. The Navy and industry have 
conducted extensive trade studies based on the latest and evolving 
threat intelligence to ensure the threshold to objective growth in 
those KPPs and KSAs are obtainable with the current fiscal constraints. 
The resulting UCLASS acquisition strategy leverages industry's ability 
to deliver, within 4-5 years from contract award, a capable and 
survivable air vehicle while achieving the $150M cost per orbit KPP and 
preserves the ability to incrementally increase future Air Vehicle (AV) 
capability to match evolving threats. The in-depth technical 
interchange that has been ongoing between the Navy and industry has 
been instrumental in developing a comprehensive draft Request for 
Proposal (RFP) presently under review. Once early operational 
deployments are conducted and fleet inputs have been obtained on the 
UCLASS concept of operations, the KPPs and KSAs in the Capabilities 
Development Document will be updated to support the next acquisition 
Milestone Decision.
    Mr. Forbes. The committee understands that the Navy is embarking on 
two separate analysis of alternative assessments to potentially develop 
a Next-Generation Land Attack Weapon (NGLAW), and to develop a surface-
launched Offensive Anti-Surface Warfare (OASuW) weapon. Can you 
describe for us why two separate analyses are being performed to 
essentially fulfill what appears to be similar requirements, and what 
risk is there involved in terminating Tomahawk Block IV production 
after fiscal year 2015 while the analyses is on-going?
    Secretary Stackley and Admiral Mulloy. The Department has two 
separate mission areas that require assessment: 1. The follow-on to the 
Tomahawk Weapon System (land-attack) and 2. Long-term OASuW (anti-
surface warfare). The Navy has commenced study efforts that will lead 
to a material development decision (MDD) in Fiscal Year 2015 to 
determine whether the Department will enter the Material Solution 
Analysis Phase for two separate weapon systems (one land-attack weapon 
and one anti-surface warfare weapon) or one weapon that performs both 
missions. The analyses in progress take into account multiple factors, 
to include launch platforms, target sets, warfighting scenarios, 
CONOPS, kill-chains, technology maturity, and cost. These analytical 
efforts place the Department on a path to address both mission areas.
    Separately, the Navy has programmed for continued modernization of 
the current inventory of Tomahawk weapons to improve their 
effectiveness against the challenges posed by the increasingly capable 
A2/AD threat environment. Ultimately however, although our Tomahawk 
inventory is more than sufficient to address worst case operational 
planning scenarios, the limits to our ability to modernize Tomahawk 
dictate that we develop and deliver the next generation at sufficient 
rate to replace the current Tomahawk inventory before it proves 
obsolete.
    Mr. Forbes. The Navy decided to procure 7 less E-2D aircraft in the 
5-year multi-year procurement authorized in the FY14 National Defense 
Authorization Act. Why did the Navy make this decision and what is the 
impact of procuring 7 less aircraft during the 5-year multi-year 
contract?
    Secretary Stackley and Admiral Mulloy. The Navy's budget across the 
Future Years' Defense Plan (FYDP) was reduced by $38 billion compared 
to the FYDP submitted to the Congress when the higher levels of E-2D 
procurement were planned within the multiyear procurement (MYP). This 
budget reduction drove reduced procurement quantities across virtually 
every program and resulted in the decision to delay the purchase of 
seven E-2D aircraft into years outside of the current MYP contract (FY 
2014-2018). The impact of delaying the procurement of these aircraft--a 
cost increase per MYP aircraft of $7.4M due to reduction of economies 
of scale and delay to Full Operational Capability from FY 2023 to FY 
2025--is poignant example of the negative impact and inefficiencies 
caused by the Budget Control Act reductions.
    Mr. Forbes. The Director of Operational Test and Evaluation for the 
Secretary of Defense has recently been critical of the P-8's initial 
operational capability as only being equivalent to what the P-3 
provides the Navy today. Will the P-8's capability remain at P-3 levels 
during its service-life, or does the Navy have plans to increase its 
capability above what the P-3 currently provides? If so, what 
capability increases will occur as compared to the P-3 today?
    Secretary Stackley. The P-8A Poseidon program is structured as an 
evolutionary acquisition program delivering capability in three 
separate increments. The overarching purpose of Increment 1, as defined 
in the program's requirements documentation, is to replace the aging P-
3 airframe with a mission system that is at least equivalent to its P-3 
predecessor. The Increment 1 configuration successfully completed 
Initial Operational Test & Evaluation (IOT&E) in 2013 and has 
subsequently deployed operationally. Though Increment 1 relied 
primarily upon NDI sensor technology and evolutionary upgrades to 
existing P-3 systems in order to minimize cost, schedule and technical 
risk, the Increment 1 baseline still delivers significantly greater 
mission capability than the P-3 in several important regards. First, 
the basic airframe's significantly greater speed, range, and endurance 
relative to the P-3 are of great operational benefit especially across 
the broad areas encompassed by the Pacific Fleet's Area of 
Responsibility. Second, both the basic airframe and the installed 
mission systems are substantially more reliable than their predecessor 
systems, especially in the case of the acoustic ASW subsystem. Finally, 
several key mission systems improve on the performance of their 
predecessors as a consequence of the continuous advancement of basic 
mission computing and sensor technologies. Consequently, though only 
required to equal the capability of the P-3's acoustic system, the P-
8's acoustic system can monitor twice the number of sonobuoys as the P-
3, and can display acoustic data using twice the available display 
area, to a larger number of operators, and with far better integration 
to the aircraft's other sensors. These P-8A Increment 1 improvements to 
the P-3 baseline result in larger search areas while improving the 
operator's ability to recognize ASW contacts when they are detected. 
Similar Increment 1 improvements vs. the P-3 baseline exist for the P-
8's ESM and Self Protection systems. Collectively, these integrated 
Increment 1 systems provide an excellent foundation upon which the P-8 
Increment 2 and Increment 3 efforts will build.
    P-8A Increment 2 begins a series of pre-planned upgrades that 
deliver new capability to the Fleet on a recurring periodic cycle. The 
first of these capability upgrades are on-track to deliver in 2015, 
when the broad area Multi-static Active Coherent (MAC) acoustic ASW 
capability is fielded as part of the first of three planned Increment 2 
software deliveries. Following this delivery, Increment 2 will deliver 
a high-altitude ASW search capability, an integrated Automatic 
Identification System (AIS) to interrogate shipboard transponders, 
enhanced MAC processing techniques to further increase the detection 
performance of the baseline MAC system, a portfolio of other acoustic 
signal processing upgrades vetted through the Maritime Patrol and 
Reconnaissance community's Rapid Capability Insertion (RCI) process, 
and a High Altitude ASW Weapon Capability (HAAWC). The air-to-air 
refueling capability already resident in the basic airframe will also 
be tested and certified for fleet use during this period. All of these 
capabilities, which exceed the capabilities of the P-3 baseline, will 
be fielded prior to the end of 2017.
    Finally, Increment 3 is a critical piece of the P-8A evolutionary 
strategy which will continue following the final Increment 2 software 
release and which is designed to introduce the most extensive of all 
currently planned P-8A capability upgrades. Elements of Increment 3 
include the integration of Higher-Than-Secret (HTS) data processing 
architectures, a fully Net Enabled ASuW Weapon, and extensive upgrades 
to the following sensors and communications systems: Radar, Acoustics, 
Link-16, Common Data Link, and SATCOM. Increment 3 also provides 
extensive Net Centric capabilities through an Applications Based 
Architecture (ABA) that is optimized to promote participation and 
competition by 3rd party vendors and small businesses. Increment 3 is 
currently conducting pre-EMD activities with a scheduled IOC for this 
complete capability package of 2021.
    Mr. Forbes. The fiscal year 2014 National Defense Authorization Act 
limited to six the number of air vehicles the UCLASS program could 
acquire prior to Milestone B to limit the cost and risk exposure of the 
taxpayer until the Navy could determine how it was going to use the 
UCLASS aircraft system. Do you anticipate any challenges associated 
with limiting the UCLASS aircraft to six prior to achieving Milestone B 
in the program?
    Secretary Stackley. The 2014 NDAA language associated with limiting 
the quantity to six prior to Milestone B does present challenges to the 
UCLASS program's ability to meet schedule and Early Operational 
Capability (EOC). The Department intends to develop a UCLASS system and 
associated CONOPS to achieve the JROC (JROCM 196-12) directed 
capability of sustaining two unrefueled orbits (defined as 24/7 
constant coverage) at 600nm radius per CVN. Under the current plan, the 
Department will use these developed CONOPS to refine the system 
requirements to ensure affordability and continue to limit taxpayer 
exposure during procurement.
    Based upon information obtained during Preliminary Design Reviews, 
the Department estimates that six air vehicles per CVN will be 
necessary to achieve the unrefueled orbit requirement. At least two 
dedicated test air vehicles (non-deployable) are needed to complete the 
required UCLASS test and certification events to fully verify the 
flight, weapons release, and sensor performance envelopes of the UCLASS 
system. The limit of six air vehicles prior to Milestone B will leave 
only four air vehicles for the EOC deployments, which will be 
insufficient to fully evaluate the system's intended capability and 
develop the associated CONOPS.
    Based on the need to support the EOC deployments with a full UCLASS 
system while simultaneously conducting post-EOC testing, the Department 
recommends that the number of air vehicles that may be procured prior 
to Milestone B be increased to eight. We will continue to work with the 
respective Committee staffs to address all concerns associated with 
requirements, technical maturity, and acquisition strategy with the 
intent of gaining concurrence on the substantive issues in order to 
successfully deliver this needed capability.
    Mr. Forbes. I understand the Marine Corps has restructured the ACV 
program, to include a wheeled armored personnel carrier, and that this 
vehicle will be fielded before the high water speed amphibious assault 
vehicle variant. Will the wheeled vehicle that will be procured prior 
to the high water speed solution be a commercial-off-the shelf 
solution? How many of these wheeled vehicles do you plan to procure?
    Secretary Stackley. No, the wheeled armored personnel carrier will 
not be a commercial-off-the-shelf solution. Given the maturity of this 
type of vehicle in the combat market and because of the engineering and 
requirements work we have done with the industry over the last 8 years, 
we believe that a solution that meets our essential operational 
requirements will be available without significant research and 
development costs that have to be borne by the taxpayer . We intend to 
field this vehicle in phases, ultimately outfitting at least six of our 
ten Assault Amphibian companies. This will require approximately 700 
vehicles. We will refine the requirement for future phases as we 
determine the capacity of each individual vehicle.
    Mr. Forbes. CBO has estimated that an average of $19.3 billion per 
year over the next 30 years is required to meet the 306-ship goal. Is 
your sense that 306 ships is a realistic goal? With the programming 
average of $16.8 billion over the next 5 years, has the Navy invested 
sufficient resources to meet the 306-ship goal?
    Admiral Mulloy. The 306 ship battle force is not a goal but rather 
a requirement. The 2012 Force Structure Assessment (FSA), a 
comprehensive and rigorous analytical assessment, determined a post-
2020 requirement for 306 ships in the battle force and emphasized 
forward presence while re-examining resourcing requirements for 
operational plans and defense planning scenarios.
    Yes, the FY2015 President's Budget invests sufficient resources to 
meet the FSA requirement as the battle force will increase to 309 ships 
by the end of FY2019.
    While we can meet today's resourcing needs, the impact of funding 
the Ohio Replacement SSBN, which is what drives the CBO average so 
high, will be dramatic. Moving the Navy SCN funding to an average of 
$19.3B per year for the next 30 years, without shorting Navy account of 
readiness, manpower, and modernization funding, is not possible without 
outside support.
    Mr. Forbes. Admiral Locklear provided testimony earlier this month 
to the House Armed Services Committee and provided the following 
information with regards to the potential reduction of an aircraft 
carrier, ``You have about 10 [aircraft carriers] now. We can't support 
the global demand.'' He went on and said ``One thing for sure, in my 
experience is that--that part of the U.S. global leadership is maritime 
dominance, where we choose to have it. And at the front of that 
maritime dominance, which starts to become very important, particularly 
in the world we're in today, are the capabilities that aircraft 
carriers bring.'' What is your assessment about a potential reduction 
in aircraft carrier force structure and the impact to the supporting 
combatant commander requirements?
    Admiral Mulloy. With an 11-carrier force the Navy has met, on 
average, 50% of Combatant Commander (COCOM) demand for aircraft 
carriers since FY13. A permanent force structure reduction to 10 
aircraft carriers would further impact Navy's ability to meet COCOM 
presence requirements. The impact of not meeting the COCOM demand and 
presence requirements resides primarily in managing risk. That risk is 
defined by uncertainty in Navy's ability to meet some portion of 
security objectives and prompt response to a crisis with forces already 
in theater. As mitigation, the Department of Defense would continue to 
employ the Global Force Management process to most effectively allocate 
Naval forces to the highest priority COCOM requirements.
    Mr. Forbes. I understand the Marine Corps has restructured the ACV 
program, to include a wheeled armored personnel carrier, and that this 
vehicle will be fielded before the high water speed amphibious assault 
vehicle variant. Will the wheeled vehicle that will be procured prior 
to the high water speed solution be a commercial-off-the shelf 
solution? How many of these wheeled vehicles do you plan to procure?
    General Glueck. It will not be a commercial-off-the-shelf solution. 
However, given the maturity of this type of variant in the combat 
vehicle market and in light of the engineering and requirements work we 
have done with the industry over the last eight years, we believe that 
a wheeled solution that meets our essential operational requirements 
will be available without significant development. We intend to procure 
approximately 700 of these vehicles in phases. We will refine the 
requirement for future phases as we determine the capacity and 
capabilities of each individual variant.
    Mr. Forbes. Will the wheeled vehicle that will be procured prior to 
a high water speed solution use ACV funding lines?
    General Glueck. Yes. We intend to test and procure these vehicles 
in phases. It is our desire to use ACV funding lines for necessary 
RDT&E now and for procurement to provide an initial operational 
capability in the early 2020s.
    Mr. Forbes. Based on this new ACV acquisition strategy, does this 
mean the Marine Corps will plan to look more at ship-to-shore connector 
solutions for high water speed requirements?
    General Glueck. Yes. Due to Expeditionary Force 21, our new 
capstone concept, as well as threat capabilities, our operating forces, 
in coordination with the Navy, must be prepared to operate from a sea 
base established at distances greater than 50 nautical miles from the 
shore. For high speed, we will be dependent upon multiple and flexible 
ship-to-shore connector solutions to support closing that gap as 
rapidly as possible. As a result connectors such as the LCAC and LCU, 
their planned replacements, and their complementary effects with the 
ACV become required critical capabilities to support maneuvering combat 
and combat support forces and equipment ashore at relatively high 
speeds.
    Mr. Forbes. How is the wheeled vehicle that will be procured as 
part of the ACV program different from that of current Marine Corps 
Light Armored Vehicles? Why not modified those existing vehicles to 
meet the phase 1 requirements?
    General Glueck. The Marine Corps Light Armored Vehicle (LAV-25) is 
a reconnaissance vehicle designed to support the Light Armored 
Reconnaissance (LAR) Battalion Mission and is designed to be employed 
by a 3-Marine crew and carries a 4-Marine reconnaissance scout section. 
The LAV-25 has been in the Marine Corps inventory since 1983 and has 
reached the end of its growth margin due to several modifications made 
over its lifespan. We intend to continue to employ our LAVs in LAR 
Battalions well into the 2030s until we can replace them. The ACV is 
required to equip the Marine Assault Amphibian Battalions who have the 
mission to provide amphibious and armored mobility to Marine Corps 
infantry and selected other elements of the Marine Air Ground Task 
Force. The ACV will have the basic requirement to carry at least 10 
infantrymen in addition to a three Marine crew and multiple days' 
supply of food, water, munitions, etc. In addition to this expanded 
carry requirement, it must be highly mobile on land under load and with 
significant ballistic and underbelly IED protection. It will also need 
a robust swim capability to operate effectively in the littorals, with 
a shore-to-shore capability, to permit seamless maneuver through 
rivers, lakes, and in the ocean with the capability of safely 
negotiating surf zones. The LAV is not capable of these requirements. 
The ACV will provide a balanced protection, payload and performance 
capability to embarked infantry with improved armor-protected mobility 
to the objective.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Given the current state of combatant ship numbers, how 
significant is the ``risk'' to mission for maintaining security for 
freedom of navigation and commerce? What is the breaking point for not 
being able to fulfill this capability?
    Secretary Stackley and Admiral Mulloy. Freedom of Navigation (FoN) 
operations involve naval units transiting disputed areas to avoid 
setting the precedent that the international community has accepted 
these unlawful claims. Since these FoN operations typically involve 
only a few ships, as long as the Navy continues routine overseas 
deployments, our ability to provide forces for this mission is not at 
risk with our current force structure.
    Freedom of commerce is similarly assured by our ships on routine 
deployments, through both normal presence and periodic transit of 
strategic chokepoints and high threat areas (such as areas subject to 
threat of piracy).
    Current Navy force structure provides assurance to our allies of 
our resolve to support freedom of navigation including transit of 
disputed or high-threat areas, and signals to potential adversaries 
that the U.S. is committed to maintaining freedom of navigation and the 
unimpeded flow of maritime commerce.
    Mr. Conaway. In the frame of capacity building with regional 
partners in combination with a lowered U.S. naval capacity to provide 
sustained forward presence, how will the U.S. dependence increase for 
partner-nations for providing regional maritime security and ensure 
safe sea lanes for U.S. commerce?
    Secretary Stackley and Admiral Mulloy. Navy's adoption of the 
Optimized Fleet Response Plan (O-FRP) and increased use of forward 
deployed Navy assets has stabilized Navy's ability to continue 
providing forward presence at approximately the same level as in recent 
years. By 2020, ship presence in the Asia-Pacific region will increase 
to about 67 ships, up from about 50 on average today. Presence in the 
Middle East will increase from about 30 ships on average today to about 
41. Efforts to partner in maritime security missions are desired and 
encouraged as they build confidence and interoperability between 
nations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. Please address the benefits that timely AP funding can 
have especially in successful shipbuilding programs like the ongoing 
Mobile Landing Platform/Afloat Forward Staging Base shipbuilding 
program?
    Secretary Stackley. Advanced Procurement (AP) funding for advanced 
planning efforts and procurement of long lead time material (LLTM) has 
been successfully employed on a number of shipbuilding programs to meet 
ship construction schedules. Further, such funding provides critical 
stability across the shipbuilding industrial base--from key vendors 
manufacturing unique equipment and components to our shipbuilders--by 
enabling workload stability and level loading, thus avoiding 
debilitating production breaks that threaten layoffs, loss of skilled 
labor, and cost growth. In addition, some shipbuilding programs have 
employed economic order quantities (EOQ) associated with multiyear 
procurement contracts to achieve increased savings.
    With respect to the Mobile Landing Platform (MLP) program, advanced 
planning and the procurement of LLTM components occurred on MLP 3 AFSB. 
The Navy requested AP funds for detail design efforts for MLP 4 AFSB in 
the FY 2013 President's Budget Submission. However, no AP funds were 
appropriated, and the ship was fully funded in FY 2014.
    Mr. Hunter. Since a determination was made that having a third 
Afloat Forward Staging Base ship is required, and since funds were 
sought, authorized and appropriated in FY14 to procure the second 
Afloat Forward Staging Base ship, wouldn't it make sense to work to 
allocate some meaningful level of AP funding this coming fiscal year, 
FY15, or certainly no later than next fiscal year, FY16, in order to 
support the cost-efficient and timely production of this required ship 
with the specialized supplier base and shipbuilder?
    Secretary Stackley. Advanced Procurement (AP) funding is budgeted 
on a lead-time basis for material and design efforts necessary to meet 
ship construction schedules. FY 2015 AP is not required for the FY 2017 
ship. The Department will take the matter of FY 2016 AP for the FY 2017 
ship into consideration during development of the FY 2016 budget 
submission. However, past efforts to budget for AP for the purpose of 
efficiencies and to avoid production gaps have not historically been 
supported by the Appropriations Committee and are therefore considered 
high risk by the Department.
    Mr. Hunter. Given that your recent testimony and PB15 budget 
exhibits confirm that there would be a 3-year interval between start-
of-construction of the FY14 funded AFSB ship and start-of-construction 
of the budgeted FY17 AFSB ship, what actions could the Navy and 
Congress take--including but not limited to the allocation of timely AP 
funding--to minimize a production gap between these two urgently 
required ships?
    Secretary Stackley. Upon its award, the fourth Mobile Landing 
Platform (MLP 4) will provide new construction workload for the 
shipyard through 2017. A production gap would exist between the 
completion of MLP 4 and start of construction of MLP 5 (if awarded in 
FY 2017). While FY 2016 Advanced Procurement (AP) funding could 
possibly help to mitigate the gap, FY 2015 AP is not required for the 
FY 2017 ship. The Navy will take the matter into consideration during 
development of the FY 2016 budget submission. However, despite the 
benefits provided by Advanced Procurement in terms of cost efficiency 
and production stability, the historical lack of support for AP by the 
Appropriations Committee is a significant factor in the Department's 
determination of whether or not to request such funds in our budget 
submission.
    Mr. Hunter. Additionally in relation to the TAO(X) fleet oiler 
recapitalization program, wouldn't it make sense to work to allocate 
some AP funding in the FY17 timeframe for the second TAO(X) fleet oiler 
slated for FY18 procurement in order to help achieve desired 
programmatic and acquisition objectives and in the industrial base?
    Secretary Stackley. Advanced Procurement (AP) funding for advanced 
planning and procurement of long lead time material (LLTM) may be 
appropriate in FY 2017 to support the timely and efficient production 
of the second T-AO(X) ship in FY 2018. On more complex war ship 
designs, the Navy typically includes a ``gap'' year following award of 
the lead ship to properly allow the design to reach sufficient 
maturity, and to avoid ``two'' lead ships. T-AO(X) is planned as a 
commercial-oriented, non-developmental design, and would likely benefit 
from AP funding in FY 2017 and the resulting improvement in production 
efficiency. The Navy will take AP into consideration during the 
development of the FY 2017 budget. However, despite the benefits 
provided by Advanced Procurement in terms of cost efficiency and 
production stability, the historical lack of support for AP by the 
Appropriations Committee is a significant factor in the Department's 
determination of whether or not to request such funds in our budget 
submission.

                                  <all>
</pre></body></html>
